<html>
<title> - DOES INDIAN SCHOOL SAFETY GET A PASSING GRADE?</title>
<body><pre>[Senate Hearing 111-661]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-661
 
             DOES INDIAN SCHOOL SAFETY GET A PASSING GRADE?

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 13, 2010

                               __________

         Printed for the use of the Committee on Indian Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
61-712                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c3b2c331c3f292f283439302c723f333172">[email&#160;protected]</a>  

                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 13, 2010.....................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Dorgan......................................     1
Statement of Senator Franken.....................................     3
Statement of Senator Johnson.....................................    21
Statement of Senator Tester......................................     4
Statement of Senator Udall.......................................     4
    Prepared statement...........................................     5

                               Witnesses

Echo Hawk, Hon. Larry J., Assistant Secretary, Indian affairs, 
  U.S. Department of the Interior, accompanied by Bart Stevens, 
  Acting Director, Bureau of Indian Education, and Jack Rever, 
  Director, Office of Facilities, Environmental and Cultural 
  Resources......................................................     7
    Prepared statement...........................................     9
Fairbanks, Dr. Anthony, Superintendent, Pueblo of Laguna 
  Department of Education........................................    34
    Prepared statement with attachments..........................    36
Kendall, Mary L., Acting Inspector General, U.S. Department of 
  the Interior...................................................    13
    Prepared statement...........................................    14
Roman Nose, Quinton, Treasurer, National Indian Education 
  Association....................................................    26
    Prepared statement...........................................    30

                                Appendix

BlueEyes, Faye, Program Director, Dzilth-Na-O-Dith-Hle Community 
  Grant School, Navajo Nation, prepared statement with attachment    75
Jaynes, Charles L., Former Chief of Safety and Risk Management, 
  Bureau of Indian Affairs, prepared statement...................    78
Standing Rock Sioux Tribe, prepared statement....................    81


             DOES INDIAN SCHOOL SAFETY GET A PASSING GRADE?

                              ----------                              


                         THURSDAY, MAY 13, 2010


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. I am going to call the hearing to order. I 
will be joined by my colleagues shortly, but in the interest of 
starting to begin, today we are going to examine a basic and 
important question of whether Indian children are safe when 
they attend schools that are operated by our Federal 
Government.
    We operate 184 schools throughout the Interior Department's 
Bureau of Indian Education. These are 184 schools throughout 
Indian Country, and the agency is responsible for the safety of 
44,000 children, thousands of teachers and staff who in many 
cases work at and live at these schools.
    The schools are owned and operated by the United States and 
we have an obligation, of course, to ensure that students and 
faculty have a safe place to learn, to teach and to live, in 
some cases. We have had reports previous to this of disrepair 
and circumstances that show that BIA schools are some of the 
schools in our Country that are in most desperate need of new 
investment and new safety regulations.
    So today we are continuing this discussion. It is the case, 
I think, in the past it has been and still is in many respects 
a circumstance where we are failing to meet our obligations. A 
number of schools suffer serious structural problems and lack 
policies and plans to ensure the protection of students, 
faculty and staff.
    From what we know, it appears that safety inspections are 
not consistently performed. Maintenance and repairs that 
directly relate to safety are not always prioritized. We have 
held numerous hearings on this, and the Inspector General has 
issued numerous reports describing these problems.
    A recent investigative report by a news organization in 
Albuquerque, New Mexico highlights some of the problems there. 
They found that several schools in New Mexico had fire alarms 
that failed to work. In one instance, the school silenced the 
fire alarm because it malfunctioned too often. In another 
school, the fire alarms do not work and are so old you could no 
longer get parts to fix them. Only 3 of 36 schools in a 2009 
report had safety inspections performed, although they were 
supposed to be annual inspections.
    The response from the BIA back then was that they just 
don't have the money to replace fire alarms. Inadequate funding 
for school improvements, repairs and construction is just a 
chronic and an ongoing issue. We all agree on that. The 
question is what is it going to take to fix it. When I hear 
that we don't even have capabilities to fix fire alarms at 
schools, I worry about it.
    Although we all agree that more funding is needed, the 
Administration in its budget request failed to request an 
increase in funding for fiscal year 2011. In fact, they asked 
for a $9 million cut in education construction funding. I have 
requested that the funding for school construction be restored 
to the 2003 level and that would be an increase above the 
President's current request.
    Funding is always going to continue to be a problem, I 
understand, but my real concern is that proper policies and 
procedures need to be in place to identify and quickly correct 
safety issues at the Department schools. There needs to be a 
process for identifying and then prioritizing maintenance and 
repair projects that directly relate to safety.
    Department safety officers have identified over 85,000 
safety deficiencies at the schools. However, only 25,000 have 
been corrected. So more than two-thirds of safety deficiencies 
that have been identified remain unaddressed and I think in 
many cases dangerous.
    The 2007 Inspector General's report said ``these 
deficiencies have the potential to seriously injure or kill 
students and faculty and require immediate attention to 
mitigate the problems.'' Yet, schools on one of my reservations 
in the State of North Dakota continue to have fire alarms that 
fail to work, sprinkler systems needing to be replaced, and no 
emergency evacuation plans.
    I think there needs to be a clear path from the Department 
on how we are going to address these issues, what the cost is, 
and what kind of plan we develop going forward. We just can't 
allow tens of thousands of students, faculty and staff to 
remain in conditions that I think can be and in many cases are 
unsafe.
    I thank the witnesses that have volunteered to come today. 
We will, I would say before I call on the witnesses, place 
their full written statements for all of them in the record. We 
will ask them to summarize. We will also leave the record open 
for two weeks following the hearing for additional submissions.
    Let me call on my colleagues for any opening statements.
    Senator Barrasso?

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I 
appreciate your holding this hearing today and I want to 
welcome each of our witnesses for being here.
    Mr. Chairman, as you said, having a safe environment to 
study and to learn is essential. It is essential to children's 
academic achievement. The report in recent years from the 
Inspector General and from tribal leaders indicates that many 
Indian schools are not providing a safe environment.
    The report describes, and I won't go into each of the 
specific details, Mr. Chairman, because you have clearly done 
that in a very effective way, but what we all see is an 
environment that is unacceptable, including major and minor 
construction deficiencies, missing emergency preparedness 
plans, school violence indicators, and failure to perform 
background checks on employees.
    So in today's hearing, Mr. Chairman, I hope we will hear 
about progress, progress that the Department of the Interior 
has made to meet the recommendations of the Inspector General.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Mr. Chairman, thank you for holding this 
hearing on this important issue of safety in Indian schools. I 
have talked about the deteriorating condition of Indian schools 
time and time again in this Committee. The condition of BIA's 
schools is an unconscionable threat to the health and well 
being of children in Indian Country.
    The budget for Indian school construction has been 
consistently cut since 2004, and this year is unfortunately no 
exception. The President's budget cuts school construction by 
$9 million even after accounting for internal transfers between 
BIE accounts.
    I have worked with Chairman Dorgan and several of my 
colleagues on this Committee to call for a return to the level 
of $293 million that we appropriated for Indian school 
construction back in 2003. That will allow us to finally get to 
schools like the Bug-O-Nay-Ge-Shig School at Leech Lake 
Reservation. The condition of these schools is an injustice. 
There is just no other way to put it. We have to do something 
about it.
    In addressing school safety in Indian Country, we must also 
address school violence, an issue that rings close to home in 
Minnesota. On March 21 of this year, Minnesota and the Nation 
commemorated the five-year anniversary of the Red Lake 
Massacre. On that tragic day, a 16 year old student on Red Lake 
Reservation shot and killed his grandfather, his grandfather's 
girlfriend and others at Red Lake High School before taking his 
own life.
    In the wake of the massacre, the Red Lake community decided 
that they would not be defined by the tragedy. Instead, they 
chose to be defined by their ability to overcome it. Over the 
past few years, the Red Lake community has worked tirelessly to 
improve the safety and well being of its students. As part of 
this effort, the Red Lake School District has instituted 
reforms to reduce school violence. The district has, for 
example, implemented behavioral management and anti-bullying 
programs in the schools. As a result, school discipline 
problems in the district have decreased dramatically.
    School safety challenges, however, are not confined to the 
boundaries of Red Lake. As a recent report by the Department of 
Interior Inspector General's Office shows, schools across 
Indian Country are ill-equipped to protect their students from 
internal and external threats of violence. For example, the 
Inspector General's Office found that many BIE schools failed 
to provide their staff with adequate training on preventing 
violence and responding to emergencies. This is very 
concerning.
    The Red Lake community has shown us what we can do to 
address the challenge. It is time that we provide schools 
across Indian Country with the support that they need to adopt 
the types of reforms that the Red Lake community has 
instituted.
    I agree with my colleague, Senator Udall, that we have a 
national emergency on our hands. We must act before it is too 
late.
    Thank you, Mr. Chairman.
    The Chairman. Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    I want to echo the comments by the previous Senators about 
my appreciation for you holding this meeting. I want to thank 
the panelists for being here today.
    Outside of the obvious problem of unsafe schools, and 
personal bodily injury, we all know for a fact that poverty 
runs high in Indian Country. We all know for a fact that, at 
least in Montana and I am not so sure it isn't this way around 
the Country, if you want to know where the at-risk population 
is, it is our Native Americans.
    If you don't have safety in schools, there is no way you 
are going to know how to read or write; no way you are going to 
have the opportunity to learn; no way you are going to be able 
to really focus and develop the kind of skills it is going to 
take to develop an economy that right now in Montana and many 
reservations is about 70 percent to 80 percent unemployment.
    The bottom line is, all this stuff joins together. All this 
stuff dovetails with one another. And this is a problem that is 
so obvious that if we can't fix this, there is no way we can 
give folks hope that need hope more than anybody else.
    So with that, I do appreciate the panel being here. I 
appreciate the Chairman stepping up to the plate once again and 
holding a hearing on a topic that is very, very important.
    The Chairman. Senator Tester, thank you very much.
    We are joined by the Honorable Larry Echo Hawk.
    Senator Udall, how are you? Senator Udall, do you have an 
opening statement?
    Senator Udall. Yes, I think so. Did Senator Tester provide 
one?
    The Chairman. Senator Tester has already delivered an 
opening statement, to a standing ovation.
    [Laughter.]
    Senator Udall. Thank you very much.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Chairman Dorgan, I want to thank you for holding this 
hearing. It is a very important hearing both for the Country 
and native students, and it is also important to New Mexico 
because we have recently had some incidents that have 
highlighted the problem in our schools.
    I would like to welcome all of our witnesses, especially my 
good friend, Assistant Secretary Larry Echo Hawk and the Laguna 
School Superintendent, Dr. Fairbanks. I am pleased today to 
welcome Dr. Fairbanks to witness before the Committee on the 
important issue of BIA safety, and specifically on his 
experience in the Pueblo of Laguna in New Mexico.
    As Superintendent with the Pueblo of Laguna Department of 
Education since 2007, Dr. Fairbanks has direct experience 
struggling to make it through the long line of maintenance and 
construction backlogs while the Pueblo's elementary school 
continues to sink deeper into despair.
    Dr. Fairbanks has been an advocate of education for over 28 
years across the Country. He previously served as the Assistant 
Professor for New Mexico State University, as the Native 
American Development Specialist for the University of 
Wisconsin, and as an elementary school Principal and a pre-12 
Dean of Students, and as a middle school and high school 
football coach.
    Dr. Fairbanks has a master's degree in education, a 
doctorate in educational policy and administration, and is a 
Ojibwe of Red Lake and White Earth Indian Reservations in 
Minnesota. And we welcome him as a representative of the Pueblo 
of Laguna and the many other tribes in New Mexico that want to 
educate their students in good, safe schools.
    So I am going to put the rest of my statement, Chairman 
Dorgan, in the record, but as you all know, I have been calling 
for a Marshall Plan to eliminate the backlog in construction 
and maintenance of BIA facilities, and at the same time, the 
taxpayers and native communities deserve assurance that these 
monies will be spent accountably and that they would be spent 
in a cost-effective way.
    So with that, thank you very much. I am very much looking 
forward to the witnesses today.
    [The prepared statement of Senator Udall follows:]

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico

    I want to thank Chairman Dorgan for holding this hearing to examine 
school safety in tribal schools, and what must be done to keep our 
Native schoolchildren and staff safe and secure in these facilities.
    I would like to welcome all of our witnesses this morning, 
including my good friend, Assistant Secretary Larry Echo Hawk, and 
Laguna School District superintendent, Dr. Fairbanks.
    I am pleased today to welcome Dr. Anthony R. Fairbanks to witness 
before the Committee on the important issue of BIA school safety, and 
specifically on his experience in the Pueblo of Laguna in my state of 
New Mexico. As Superintendent with the Pueblo of Laguna Department of 
Education since 2007, Dr. Fairbanks has direct experience struggling to 
make it through the long line of maintenance and construction backlogs, 
while the Pueblo's elementary school continued to sink deeper into 
disrepair.
    Dr. Fairbanks has been an advocate of education for over 28 years 
across the country. He previously served as an Assistant Professor for 
New Mexico State University, as the Native American Development 
Specialist for the University of Wisconsin, as an elementary school 
principal, as Pre-K-12 Dean of Students, and as a middle and high 
school football coach.
    Dr. Fairbanks has a Master's Degree in Education, and a Doctorate 
in Educational Policy and Administration.
    Dr. Fairbanks is Ojibwe from the Red Lake and White Earth Indian 
reservations in Minnesota, and today we welcome him as a representative 
of the Pueblo of Laguna and the many other tribes in New Mexico that to 
educate their children in good safe schools.
    Welcome.
    I hope some of the witnesses will describe their experiences 
working to improve school facilities and safety, and I'm eager to hear 
their recommendations for how to do better--for we must do much better.
    Some of you may know that I have been calling for a ``Marshall 
Plan'' to eliminate the backlog in construction and maintenance of BIA 
facilities. At the same time, the taxpayers and Native communities 
deserve assurance and accountability that monies appropriated for these 
purposes are spent in the most cost-effective manner.
    I am aware that there currently exists a backlog of about $1.3 
billion to repair or replace 64 schools in poor condition--facilities 
that have serious structural deficiencies, are not handicapped 
accessible, and are in violation of building and fire codes. That's 35 
percent of all tribal schools, and 16 of those 64 tribal schools are in 
my state of New Mexico, including Laguna Elementary School.
    Last month, I joined Senators Dorgan and Franken in asking the 
Senate Budget Committee to increase funding for BIA Education 
Construction to the 2003 funding level of $293 million, rather than 
decrease funding by $8.9 million as proposed in the President's budget.
    What concerns me is that we have known for over a decade that too 
many of our tribal schools are in a terrible state of disrepair, 
affecting health, safety, and learning.
    I want the best for our tribal communities. I know we all do. But 
I'm not persuaded that we have all acted well to bring all of our 
tribal facilities at least up to code. In fact, I believe that two-
third's of the school facilities rated in ``poor'' condition in 2001 
remain in poor condition today, with others improved only to ``fair'' 
condition.
    I'd like to hear what plan is in place to address the 
deficiencies--including those recommended by several Office of 
Inspector General reports. My understanding is that there may be 60,000 
safety deficiencies found in the past 6 years that remain unaddressed. 
60,000.
    How can this be, if there are tens of millions of dollars that 
remain unspent each year by the Office of Facilities Management and 
Construction?
    I hope to hear how funding is prioritized--are the schools with the 
greatest deficiencies at the top of the priority list?
    How are our appropriated funds used and accounted for, how are our 
tribal school facilities inspected and how are deficiencies addressed?
    This is a critically important issue and I am pleased we are 
exploring it in greater depth today. However, it is important that we 
follow up with action. I look forward to hearing from our distinguished 
panel about how best to do so.
    Thank you.

    The Chairman. Senator Udall, thank you very much. And 
thanks for your work on this subject. It is the case, all of us 
understand that when the United States Government has a school, 
it is their school. We have a trust responsibility to run this 
school for Indian children. If we are not putting these 
children in classrooms that we are proud of, that are up to 
date, safe and so on, that is our responsibility. We can't 
ignore that responsibility.
    We are joined by the Honorable Larry Echo Hawk, Assistant 
Secretary of the Bureau of Indian Affairs, U.S. Department of 
the Interior. He is the Assistant Secretary of the Interior, I 
should say, but in that position runs the BIA. He is 
accompanied by Bart Stevens, Acting Director of the Bureau of 
Indian Education and Jack Rever, who is the Director of the 
Office of Facilities, Environmental Safety and Cultural 
Resources.
    Mr. Echo Hawk, Mr. Stevens, and Mr. Rever, thank you.
    We are also joined by Mary Kendall, Acting Inspector 
General at the U.S. Department of the Interior.
    Ms. Kendall, thank you for being here.
    Mr. Echo Hawk, you may proceed.

        STATEMENT OF HON. LARRY J. ECHO HAWK, ASSISTANT 
       SECRETARY, INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
         INTERIOR, ACCOMPANIED BY BART STEVENS, ACTING 
           DIRECTOR, BUREAU OF INDIAN EDUCATION, AND 
          JACK REVER, DIRECTOR, OFFICE OF FACILITIES, 
              ENVIRONMENTAL AND CULTURAL RESOURCES

    Mr. Echo Hawk. Mr. Chairman and Mr. Vice Chairman and 
Members of the Committee, it is a pleasure for me to be with 
you today to talk about the important matter of school safety.
    I have with me today the Acting Director of the Bureau of 
Indian Education, Bart Stevens, seated to my right; and also 
Jack Rever, who is the Director of the Office of Facilities, 
Environmental Safety and Cultural Resources, to my left.
    I will make brief opening comments, and then we will be, of 
course, available to answer whatever questions you may have.
    Indian education is a very high priority for the 
Administration. Back on January 11 of this year, Secretary 
Salazar reached out to Indian Country and invited into his 
office about a dozen Indian education experts to counsel with, 
have dialogue with about what we can do to better address the 
needs of Indian education.
    In that meeting was also the Education Secretary Arne 
Duncan, and that was nice to see because there is an emphasis 
point made on collaborating with the Department of Education to 
assure that we are bringing all the resources we can to bear on 
the important issues as we try to achieve quality education for 
our Bureau of Indian Education schools.
    And we are focusing on everything that it takes to achieve 
quality education. Of course, academic performance is our 
primary goal, but we have to pay attention, of course, to 
physical facilities to make sure they are adequate and safe and 
secure schools.
    And so that is why we are here today to talk about what it 
is going to take to make sure that every student has a safe and 
secure place to learn. To accomplish that task, we need stable 
leadership, and we have had an Acting Director for the Bureau 
of Indian Education since 2007.
    Secretary Salazar has been very strong in communicating 
that we need to get on board a permanent Director of the Bureau 
of Indian Education, and I am pleased to say that as of last 
Friday on May 7, we announced the selection of Keith Moore to 
serve as the new Director for the Bureau of Indian Education. 
He is currently serving as the Chief Diversity Officer for the 
University of South Dakota, and he has previously served as the 
Indian Education Director for the State of South Dakota. He 
will be assuming his responsibilities on June 1.
    So Secretary Salazar and I look forward to working with 
Keith Moore to advance the quality of education for American 
Indians and Alaska Natives.
    We are doing our best to respond to the safety concerns 
that are identified by Office of Inspector General reports, as 
well as investigative reports that have recently been brought 
to public attention. Let me just briefly highlight some of the 
things that we have done just recently to respond to those 
reports, and then we will be able to respond to more specific 
questions that I am sure you will have.
    In response to I.G. reports, we have developed training 
materials that address the safety concerns and numerous 
training sessions have already been held to make sure that 
administrators and school personnel and other individuals 
responsible for school safety know what the challenges are and 
how to respond to in an appropriate way. The Bureau of Indian 
Education is also conducting school safety visits. Those are 
underway for all of the 184 schools that we have responsibility 
for. Those will be concluded by May of 2012, according to our 
present schedule.
    School safety specialists have been hired by the Bureau of 
Indian Education recently, and we are also working on a number 
of national policies pertaining to safe and secure operation of 
BIE schools.
    On December 8th of 2009, we convened a Safe Schools Summit 
here in Washington, D.C. and this was an effort to reach out to 
other Federal agencies and also private organizations to 
collaborate so that we could cultivate relationships and talk 
about how to put in place strategic partnerships that would 
address some things that will help in this effort to achieve 
safety in schools.
    I think it is also important to point out that we are 
addressing safety school needs in a broader context. Many of 
the Bureau of Indian Education Schools are located in high 
crime areas, which means that we have to address crime in other 
ways besides what is specifically targeted to what is happening 
in the classroom.
    This Committee has heard previous testimony that we have 
presented recently at that hearing. My Senior Policy Adviser 
Wizipan Garriott addressed staffing challenges that we face, as 
well as training changes that we are making to make sure that 
we are achieving high-quality police officers and detention 
officers.
    We are also in the midst of what we call high priority 
performance goals for law enforcement in four select 
communities in Indian Country. We are demonstrating with 
additional resources and some very careful thought about how to 
craft individual plans for particular communities that we can 
address the crime rates that are occurring out there, turn the 
corner, and make those communities safer.
    Recently, we have had connection with the Office of 
National Drug Control Policy. I was in Albuquerque just last 
week where they unveiled their anti-meth Indian Country 
initiative. And next week, I will be attending a meeting that 
has been convened by Director Kerlikowske here in Washington 
where we will talk about a drug control strategy. Indian 
Affairs will be represented in those discussions.
    One of the other things that I think that has not received 
a lot of attention that I think is very important is the 
Coordinating Council for Juvenile Justice and Delinquency 
Prevention. That is something that is chaired by the Attorney 
General of the United States and various Cabinet departments 
are represented on that Coordinating Council.
    The purpose is to make sure the Federal Government properly 
coordinates all resources of the Federal Government when it is 
addressing juvenile delinquency issues. They spotlight certain 
things that they are going to try to achieve each year, and we 
intervened early in the process and suggested that they take on 
Indian youth as one of their four focus areas. I argued in 
behalf of that and the Council voted to make Indian youth one 
of their priority subjects. So we are going to be working with 
the Attorney General and other Cabinet departments to make sure 
that we are spotlighting some things that we can make progress 
on with regard to juvenile delinquency. My Policy Adviser, Wizi 
Garriott, is the Co-Chair of the working group that is 
addressing the Indian youth issues.
    We are also trying to spotlight efforts to improve how we 
are addressing suicide prevention. There are already programs 
in place to do that, but we are trying to enhance the efforts 
that we are making to address youth suicide. We are hoping to 
collaborate with various agencies, even including State 
governments, to convene a Youth Suicide Summit later in the 
summer.
    I wanted to briefly comment, since it has been raised, 
about the 2011 budget where there has been a $9 million 
decrease in the construction budget that has obvious impact on 
our efforts to try to shore up certain things that we will be 
talking about today. But also in that budget is an increase of 
$8.9 million. And that $8.9 million will provide some funding 
for safe and secure programs that target high-risk student 
behavior, staff training, student counseling, extracurricular 
activities and security camera systems and lighting. That is 
$3.9 million.
    And there is an increase of $3 million for tribal grant 
support. This is for school systems that are not under our 
direct supervision, but it gives them the administrative 
funding to have flexibility to address the very things that we 
are going to be talking about today in those grant schools.
    In addition, there is $2 million to establish some 
environmental professionals that will be paying attention, and 
this will be about a dozen positions, to environmental hazards 
that are occurring in schools. What we are talking about here 
would be toxic waste and other substances that have been 
identified by the EPA. These are problems in all of our Federal 
buildings, schools included. And so all 183 schools will be 
impacted by the work that is done if that budget request is 
met.
    Now, I know that it is challenging times when it comes to 
budget, but of course we can do really good things with 
additional resources, but we are not waiting for additional 
resources. I can assure you that given the present budget that 
we have and whatever budget is approved for 2011 that we will 
make the very best effort that we can to address school safety 
problems.
    I look forward to working with this Committee to assure 
that Native American students have the opportunity to obtain a 
quality education and that means assuring that we provide them 
with a safe and secure place to go to school.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Echo Hawk follows:]

  Prepared Statement of Hon. Larry J. Echo Hawk, Assistant Secretary, 
            Indian affairs, U.S. Department of the Interior

    Good morning Mr. Chairman, Mr. Vice Chairman, and members of the 
Committee. Thank you for the opportunity to provide the Department of 
the Interior's views on the safety conditions of schools under the 
jurisdiction of the Bureau of Indian Education (BIE). The 
Administration is committed to providing high-quality educational 
opportunities for the students who are educated in the 183 BIE-funded 
elementary and secondary schools, consistent with the Federal 
Government's trust responsibility for Indian education. In order to 
fulfill this responsibility, it is imperative that the Department 
provide these students with safe and healthy environments in which to 
learn. We are working hard to deploy our resources in the most 
effective and efficient manner possible to improve BIE facilities.

Background
    The BIE currently funds 183 academic and resident-only facilities 
on 63 reservations in 23 states, in addition to providing funding for 
26 Tribal Colleges and Universities (TCUs) and two tribal technical 
colleges. The BIE also operates two post-secondary institutions.
    Federal funding for the education of American Indian students comes 
from both the BIE and the Department of Education. The 183 BIE 
elementary and secondary schools educate approximately 42,000 students, 
which represents a small fraction of the total American Indian student 
population in the United States. Despite our many challenges in BIE, we 
are making strides in improving Indian education. After declines in 
previous years, we have seen an increase of 9 percent in the number of 
BIE schools meeting adequate yearly progress (AYP) from school year 
2007-2008 to 2008-2009, but we are still far from achieving our goals. 
This Administration is deeply committed to moving things in the right 
direction.

Collaborative Efforts on Indian Education Within the BIE
    President Obama has made improving our nation's education system a 
top priority, stating, ``[w]e have an obligation and a responsibility 
to be investing in our students and our schools.''
    With this focus, the President has also charged those in his 
Administration with living up to these responsibilities by improving 
the delivery of educational services to Indian Country. This charge 
requires us to work across various agencies, and with tribal leaders, 
to identify and implement this objective in the best way possible.
    Earlier this year, Secretary Salazar convened an historic meeting 
with Indian education experts from across the nation, along with 
Secretary of Education Arne Duncan and me. This meeting allowed senior 
administration officials and Indian Country leaders to begin a candid 
dialogue about what works in providing education services to Indian 
Country. We look forward to continuing this dialogue.
    I am happy to report that my senior staff has been working closely 
with members of Secretary Duncan's staff on coordinating our resources 
to maximize our impact on Indian education. I have been impressed by 
Secretary Duncan's commitment to improving education for American 
children, and his keen awareness of the needs in Indian Country.
    Recently, several senior officials from the Department of 
Education, including the Under Secretary, Martha Kanter, the General 
Counsel, Charlie Rose, and various Assistant Secretaries and Deputy 
Assistant Secretaries held four regional consultations on tribal lands 
on the subject of Indian education. These senior officials spent time 
visiting with administrators, teachers, and students at BIE schools. 
They were able to witness firsthand the conditions in a number of these 
schools.
    My staff is working with other federal departments to better 
coordinate our delivery of education-related services. Wizipan 
Garriott, my Policy Advisor, is serving as Co-Chairman of the Tribal 
Youth and Juvenile Justice Work Group of the Coordinating Council on 
Juvenile Justice and Delinquency Prevention (Coordinating Council). The 
Coordinating Council, which is chaired by Attorney General Eric Holder, 
is an independent body within the executive branch of the Federal 
Government. The Coordinating Council's primary functions are to 
coordinate federal juvenile delinquency prevention programs, federal 
programs and activities that detain or care for unaccompanied 
juveniles, and federal programs relating to missing and exploited 
children.
    We are also working with the Indian Health Service in HHS, and 
other organizations, to reverse the epidemic of youth suicides in 
Indian Country. Each young person who attempts to take his or her own 
life creates a widespread ripple-effect on their community, causing a 
deep and profound impact on students, parents, and teachers, and 
diminishing the richness of their learning environment. We view our 
efforts to combat youth suicide in Indian Country as central to our 
efforts to improve Indian education.

American Recovery and Reinvestment Act (ARRA) Funding Within DOI/Indian 
        Affairs
    The American Recovery and Reinvestment Act (ARRA) provided much-
needed funding to replace dilapidated facilities with state-of-the art 
schools, and to make repairs to existing schools to improve the 
learning environment for thousands of students. The ARRA provided 
$134.6 million to replace deteriorating Bureau-funded schools in a pre-
established priority order published in the Federal Register. It also 
provided $143.1 million to repair building structure and system 
components that are necessary to sustain and prolong the useful life of 
Bureau-funded education buildings. Projects that did not receive 
funding under ARRA have been identified to improve the safety and 
functionality of facilities and improve the educational environment for 
the Indian children who attend those facilities.

Director of the Bureau of Indian Education
    Upon taking office, we worked to identify a number of improvements 
that needed to be made to enhance the delivery of our education 
services. We realized immediately that it was imperative to bring 
stability and leadership to the BIE, which is why we worked together 
with Indian Country to select a new Director for the Bureau of Indian 
Education.
    I am happy to report that, after a very lengthy process, Mr. Keith 
Moore was selected to become the new Director for the BIE and will 
begin his duties on June 1, 2010.
    Mr. Moore most recently held the position of Chief Diversity 
Officer at the University of South Dakota. He has also served as the 
Indian Education Director for the State of South Dakota. Mr. Moore 
graduated in 1990 from Northern State University in Aberdeen, South 
Dakota with a Bachelor of Science degree in Health and Physical 
Education/Social Sciences, and he received a Masters degree in 
Educational Administration from South Dakota State University--
Brookings in 2002. He also holds a Governor Rounds' South Dakota 
Leadership Development Program Masters-Level Certification and he 
received a Specialist Degree in Educational Leadership from Montana 
State University--Bozeman in 2009.
    Mr. Moore will be responsible for the line direction and management 
of all education functions, including the formation of policies and 
procedures, the supervision of all program activities and the approval 
of the expenditure of funds appropriated for education functions. 
Secretary Salazar and I will be looking to Mr. Moore to help carry 
forward the initiatives at the BIE that help improve the quality of 
education for our Indian Youth.

Meeting our Challenges

A. Office of Inspector General Report
    As I indicated above, we are well aware of the challenges we face 
in Indian Country, and we are eager to tackle those challenges head-on. 
This is why, when the Bureau received a report by the Office of the 
Inspector General (OIG) highlighting concerns about school violence at 
BIE-funded schools across our nation, I embraced these recommendations 
and sought to make changes. The February 2010 OIG Report made four 
recommendations to address the need to improve safety for our students 
and our teachers at BIE facilities. We've taken immediate steps to 
implement those recommendations, and to improve the overall security 
climate at our learning institutions.
    First, the BIE is providing--to both BIE staff and tribal education 
staff--training in such areas as: anger management; bullying 
prevention; suicide prevention; drug abuse resistance; emergency 
preparedness; and, continuity of operations. The BIE hosted the 
National Safe and Secure Schools Conference in Dallas, Texas, which 
provided participants from our funded schools with training and 
resources on a number of these, and other, issues. This effort was only 
a beginning; the BIE has also provided other training such as:

  <bullet> 10 research-based Bullying and Suicide Prevention training 
        sessions for 450 participants from 183 schools and dorms.

  <bullet> 4 Native Hope Suicide Prevention trainings.

  <bullet> Annual training at its Summer Institutes to address school 
        safety issues.

    In addition to conventional training, BIE has sought to implement 
innovative solutions with its Positive Best Behavior Supports Project 
(Project). The Project is an evidence-based discipline program which 
provides school-wide approaches to reducing the number of instances of 
anti-social or violent behavior, and supports positive behavioral 
changes. The BIE is currently providing Project training to staff at 
schools across Indian Country. Since January 2009, 227 individuals from 
49 schools have received this training. Our trainers have visited 23 
sites to provide technical assistance and perform 84 evaluation 
assessments.
    BIE staff are also currently engaged in a federal agency 
collaborative working group to coordinate and improve bullying 
prevention--including the organization of a bullying prevention summit 
this summer. Materials from the federal Stop Bullying Now campaign have 
been sent to Indian Health Service area offices.
    We are also putting the final touches on internal policies and 
procedures for Standard Operating Procedures for all BIE-operated 
schools to address the OIG recommendations, and to address additional 
areas, such as: a Student Health Service; Prohibiting Drugs, Alcohol, 
Tobacco and Inhalants; Medication; and Sexual Harassment. We hope to 
have these policies and procedures in place by early summer.
    With respect to the two remaining OIG recommendations, the BIE is 
working on both in tandem in a phased approach to conduct school visits 
and develop safety policies specific to each school site. Work began 
immediately by BIE with Phase 1 of the 3-phase plan to be concluded for 
the first 20 schools by October 1, 2010. To date, 18 schools have been 
visited. Phase 2 will target 20 more schools with a target completion 
date of May 1, 2011; and Phase 3 will target the remaining 143 schools 
to be completed by May 1, 2012.

B. BIA Safety Program
    Since 2002, the condition of federally funded Indian schools has 
improved dramatically. Over $2.2 billion in construction and repair and 
maintenance funds have been devoted to reducing the number of schools 
in poor condition as determined by the Facilities Condition Index (FCI) 
by 50 percent. Note that a school is defined as being in poor condition 
if it has an FCI of over 0.10; however, being in ``poor condition'' 
does not necessarily imply that critical health and safety issues are 
present. Yet we recognize that more must be done.
    The BIA's safety program addresses life safety deficiencies first 
and foremost. Life safety deficiencies are considered to be work that 
needs to be completed as a result of safety inspection reports. This is 
to ensure that those most critical situations are addressed 
immediately. Indian Affairs has ensured that these inspections continue 
by hiring contractors to conduct the inspections when necessary. 
Projects are prioritized through this process by safety code 
designation, such as life safety code, EPA requirements, and ADA 
requirements. Funds from the Bureau's Minor Improvement and Repair 
Program, commonly referred to as MI&R, are used for the abatement of 
those identified critical deficiencies costing less than $2,500. The 
Education MI&R program for FY 2010 is funded at $7.6 million, and other 
relevant line items such as Condition Assessment, Emergency Repair, and 
Environmental Projects provide an additional $8.1 million for similar 
work.

Conclusion
    In my prior response to this Committee on February 25, 2010, when 
asked about our estimated school construction backlog, I stated that we 
have an estimated school construction need of $1.3 billion.
    This is the estimated cost to bring the 63 schools remaining in 
poor condition (after all currently available funding is used) to an 
acceptable level. In some instances, this figure includes more than 
simply fixing the deferred maintenance items. For example, if a school 
has a number of leaks in the roof, in the long run it will be more 
economical to replace the entire roof rather than continue to fix leaks 
year after year. Therefore, the cost to replace the entire roof in 
included in the figure above, rather than the cost to repair all the 
separate leaks. Likewise, it might also be more economical to replace 
an entire building or school rather than to repair a number of deferred 
maintenance projects. If this is the case, the cost to replace the 
building is included above. It is important to note that the cost to 
simply repair the deferred maintenance at each of these schools on a 
project by project basis is much less than this $1.3 billion. However, 
we cannot simply use the estimated deferred maintenance cost as a basis 
for what the true cost will be to bring a school into acceptable 
condition.
    The challenges we face were not created overnight, and we do not 
expect that they will be solved in such a short time. We are working 
hard to coordinate our efforts with other federal agencies, and tribes, 
to ensure that we can maximize our impact.
    We hope that by collaborating with our sister agencies and Indian 
Country leaders, we can develop and implement new solutions to improve 
the conditions for our children. We know that we face a daunting task 
in providing adequate and safe school facilities, and we will continue 
to do the best we can to address school safety problems.
    We look forward to working with this Committee to ensure that 
American Indian students have a safe and secure learning environment. 
Thank you for the opportunity to address this issue and I will be 
pleased to respond to any questions the Committee may have.

    The Chairman. Mr. Secretary, thank you very much.
    Ms. Kendall, you may proceed.

 STATEMENT OF MARY L. KENDALL, ACTING INSPECTOR GENERAL, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Ms. Kendall. Good morning, Mr. Chairman and Members of the 
Committee. Thank you for the opportunity to testify this 
morning about school safety in Bureau of Indian Education-
funded schools.
    As you know, in February of this year, the Office of 
Inspector General issued an evaluation of school violence 
prevention measures. We conducted this review to determine the 
quality of school safety measures in preventing violence 
against both students and staff from internal and external 
threats.
    Overall, our evaluation revealed many indicators of 
potential violence, insufficient school policies aimed at 
preventing violence, and substantial deficiencies in preventive 
and emergency safety procedures. As a result, many schools are 
dangerous unprepared to prevent violence and ensure the safety 
of students and staff.
    Perhaps one of the most critical methods of deterring on-
campus violence lies in the overall awareness, understanding 
and ability to detect indicators of violence by school staff 
and administrators. In May of 2002, the U.S. Secret Service 
issued a report analyzing 37 school-based attacks and found 
that most attackers displayed indicators of violence in advance 
of an incident.
    We learned, however, that training in basic violence 
prevention such as anger management, bully prevention and gang 
awareness had not been provided at many of the schools we 
visited. Additionally, staff members at some schools stated 
that they were not trained on how to recognize gang indicators.
    Tracking violence and violent trends within Indian schools 
is particularly problematic because no comprehensive reporting 
or tracking system exists. Because Indian communities suffer 
from high violent crime rates, maintaining a secure campus is 
as important as keeping weapons off campus.
    We identified an array of physical security deficiencies 
such as security fencing, camera surveillance systems, visitor 
procedures and security guards. More than 80 percent of the 
schools we visited did not have adequate fencing, allowing for 
the potential of unauthorized individuals to enter the 
campuses. At White Shield school in rural North Dakota, for 
example, there is no fencing, nor a security guard.
    Almost all the schools had operable surveillance cameras, 
but many of the systems had flaws. Most schools, for instance, 
did not operate their systems in real time, missing the 
opportunity for using this valuable tool to prevent or defuse 
incidents of violence. Instead, the cameras were used to review 
past footage and identify the instigators of suspicious 
activities or violence.
    We also found that not every school we visited required 
visitors to sign in or show identification. More than half did 
not require visitors to wear identifying badges. At one school, 
we purposely bypassed the designated visitor entrance, wandered 
the school grounds, and were able to approach several 
classrooms without being stopped or questions by staff.
    The presence of gang indicators is in almost half of the 
schools we visited. Gang letters and figures were scrawled on 
the exterior walls, bathroom stalls, and inside dormitories. 
One official at a school in Arizona estimated that 75 percent 
of the school's students were in gangs. Officials at a school 
near Seattle, Washington said that community gang activity had 
led to the death of four or five former students.
    Many schools acknowledge the need to be diligent in 
recognizing and eliminating gang indicators on campus and have 
done so using a variety of available gang prevention programs, 
including an in-class curriculum taught by law enforcement 
officers and aimed at preventing school delinquency, violence 
and gang involvement.
    Finally, most of these schools are simply not prepared for 
an emergency. We reviewed emergency plans at almost all schools 
visited and requested that each school run an emergency drill 
according to plan. We noted numerous deficiencies in schools' 
abilities to run the drills due to high staff turnover, 
ineffective intercom systems, and inadequate classroom 
security. Some of the lock-down drill we observed revealed that 
classroom doors could only be locked from the outside. As a 
result, staff needed to go outdoors to lock the doors with 
keys, exposing staff and students to potential danger.
    These are some of the issues we uncovered during our visits 
to schools throughout Indian Country.
    Mr. Chairman, this concludes my testimony and I would be 
happy to answer any questions the Committee might have.
    [The prepared statement of Ms. Kendall follows:]

 Prepared Statement of Mary L. Kendall, Acting Inspector General, U.S. 
                       Department of the Interior

    Good morning, Mr. Chairman and members of the Committee. Thank you 
for the opportunity to testify today about school safety in Bureau of 
Indian Education (BIE) funded schools. As you know, in February of this 
year, the Office of Inspector General issued an evaluation of school 
violence prevention measures. We conducted this review to determine the 
quality of school safety measures in preventing violence against both 
students and staff, from both internal and external threats.
    Overall, our evaluation revealed many indicators of potential 
violence, deficiencies in school policies aimed at preventing violence, 
and substantial deficiencies in preventative and emergency safety 
procedures. As a result, many schools are dangerously unprepared to 
prevent violence and ensure the safety of students and staff.
    In March of 2005, a 16-year-old student shot and killed himself and 
seven others at Red Lake High School, a public school on the Red Lake 
Indian reservation, indicating that school violence also threatens 
Indian Country.
    Perhaps one of the most critical methods of deterring on-campus 
violence lies in the overall awareness, understanding and ability to 
detect indicators of violence by school staff and administrators. In 
May of 2002, the U.S. Secret Service issued a report analyzing 37 
school-based attacks, and found that most attackers display indicators 
of violence in advance of an incident. The Red Lake shooter was known 
to have created animation depicting extremely violent acts of death and 
elaborate drawings of people being shot or hanged.
    During our visit to Chemawa Indian School in Oregon, we saw 
similarly violent drawings inside a student's dormitory room. A portion 
of one wall was covered with depictions of a beheading, stabbing, and a 
body hanging from a tree. Chemawa school officials were unaware of the 
violent depictions until we brought this to their attention. A school 
official said the student should have been referred for counseling, and 
that dormitory checks were not being adequately performed or the 
artwork would already have been removed.
    Indicators of violence, such as the Chemawa graphic drawings, are 
reminders that deadly acts of violence can strike even seemingly 
peaceful schools. Teachers, administrators and other staff should be 
trained to understand and address all indicators of violence. We found, 
however, that training in basic violence prevention such as anger 
management, bully prevention, and gang awareness was not provided at 
many of the schools we visited. Additionally, staff members at some 
schools stated they were not trained on how to recognize gang 
indicators.
    Tracking violence and/or violent trends within Indian schools is 
particularly problematic because no functional, comprehensive reporting 
or tracking system exists. While we found few statistics on violence 
indicators at Indian schools, we found a wealth of supporting anecdotal 
evidence during our visits. For example, we found confiscated weapons, 
signs of gang activity, and substance abuse.
    Weapons end up on campuses as a result of numerous inadequate 
physical security features. For example, almost all of Sherman Indian 
School's 360 students live on campus, and many take air transportation 
to get there. School officials said that they rely on airport security 
to find dangerous items in students' luggage and do not conduct 
contraband searches upon their arrival. Airport security, however, 
allows items in checked baggage that the school would not want on 
campus. Only one of the schools we visited used a walk-through metal 
detector.
    Given the fact that Indian communities suffer from high violent 
crime rates, maintaining a secure campus is as important as keeping 
weapons off campus. We identified an array of physical security 
deficiencies in areas such as security fencing, camera surveillance 
systems, visitor procedures, and security guards.
    More than 80 percent of the schools we visited did not have 
adequate fencing, allowing for the potential of unauthorized 
individuals to enter the campuses. At White Shield School in rural 
North Dakota, there is no fencing or even a security guard. In March of 
2008, the school locked down for a possible student with a gun; police 
took 30 minutes to arrive after they were called. Fortunately, the 
situation was resolved peacefully.
    Almost all the schools had operable surveillance cameras, but many 
of the systems had flaws. Most schools, for instance, did not operate 
their systems in real time, missing out on the possibility of using 
this valuable tool to prevent or diffuse incidents of violence. 
Instead, the cameras were only used to review past footage and identify 
the instigators of suspicious activities or violence.
    We found that every school we visited had a designated visitor 
entrance. But a large number of schools did not require visitors to 
sign in or show identification. More than half did not require visitors 
to wear identifying badges. At one school, we purposely bypassed the 
designated visitor entrance, wandered the school grounds, and were able 
to approach several classrooms without being stopped or questioned by 
staff.
    The presence of gang indicators in Indian schools we visited was 
undeniable. Gang letters and figures were scrawled on the exterior 
walls, bathroom stalls, and inside the dormitories of almost half of 
the schools we visited. One official at a school in Arizona estimated 
that 75 percent of the school's students were in gangs. Other schools 
expressed concern over students whose parents were active gang members. 
School officials at a school near Seattle, Washington said that 
community gang activity had led to the deaths of four or five former 
students and the incarceration of several more for gang-related drive-
by shootings.
    Many schools acknowledged the need to be diligent in recognizing 
and eliminating gang indicators on campus, and have done so using a 
variety of available gang prevention programs, such as The GREAT 
Program, Gang Resistance Education and Training, an in-class curriculum 
taught by a law enforcement officers aimed at preventing school 
delinquency, violence, and gang involvement.
    Drugs and alcohol also cause significant problems in Indian 
Country. Alcohol abuse is the ``single biggest challenge'' facing 
Indian communities and police departments, according to a 2001 National 
Institute of Justice report. Child abuse, domestic violence, assault, 
driving under the influence, sale of alcohol to minors, and neglect 
tend to be byproducts of substance abuse.
    Site visits revealed that even though drug and alcohol abuse may 
not run rampant inside school walls, they are community issues that 
affect students at school. Local law enforcement and school officials 
confirmed that drug dealers live within a half mile of three different 
schools we visited. One school official told us that students could 
easily access drugs and acknowledged many entry points for drugs to 
reach campus.
    Finally, most of these schools are simply not prepared for an 
emergency. We reviewed emergency plans at almost all schools visited. 
We requested that each school run the emergency drills according to 
plan to identify any weaknesses. We noted numerous deficiencies in 
schools' abilities to run the drills due to high staff turnover, 
ineffective intercom systems, and inadequate classroom security. Lock-
down drills we observed revealed that most schools had classroom doors 
that could only be locked from the outside. As a result, staff needed 
to go outside to lock doors with keys, exposing staff and students to 
potential danger.
    These are some of the issues we uncovered in our visits to schools 
throughout Indian Country. Our February report on school violence was 
preceded by a report in August 2008 addressing preparedness to address 
violence in BIE operated schools. Our findings were not surprisingly 
similar.
    Mr. Chairman, that concludes my testimony. I would be happy to 
answer any questions the Committee might have. Thank you for the 
opportunity to appear here today.

    The Chairman. Ms. Kendall, thank you very much.
    To my colleagues, I would say Senator Franken indicated he 
has to leave nearly immediately and wants to ask one question.
    Senator Franken. I apologize.
    The Chairman. With the indulgence of our colleagues, let me 
recognize you.
    Senator Franken. Thank you, Mr. Chairman, and thank you to 
my colleagues for your indulgence.
    Mr. Echo Hawk, the Circle of Life School on the White Earth 
Reservation in Minnesota is one of the few fortunate BIE 
schools that will be rebuilt in the near future with 
groundbreaking slated for June of this year. In talking to 
tribe, it seems that the process for the school replacement 
took much longer than it should have. It was years and years 
even after the Federal funding was secured.
    Much of this was due to a lack of responsiveness from BIA. 
In White Earth's contact with the BIA for the school 
construction, the agency has 21 days to respond to each of the 
tribe's submitted plans for construction of the school, yet 
there have been many instances when the BIA has taken over two 
months to reply and in other cases the tribe received no 
comment or response at all.
    What are you doing to address lack of responsiveness of 
your regional BIA offices?
    Mr. Echo Hawk. Senator Franken, I think you are aware that 
I have been on the job only 11 months, but I can assure you, 
and I think I am speaking for Secretary Salazar as well, that 
we take these issues very seriously. I like to know when there 
are problems of responsiveness because we will address those 
issues.
    We have recently added a new Bureau of Indian Affairs 
Director, and I just commented we have a new Bureau of Indian 
Education Director starting on June 1. I look to those 
individuals to make sure that we are responding in a timely 
manner.
    Senator Franken. Thank you and I hope you stay on top of 
that.
    I have been told that advocates for American Indian 
students have reached out to the BIA to ask what the Bureau 
planned to do to respond to recommendations in the OIG's report 
on school violence. While the BIA's official written response 
to the OIG report was due on March 3, the advocates were unable 
to obtain the written response or any concrete answers.
    I appreciate that you are beginning to share the answers 
with us now, but it shouldn't take a hearing to obtain them. I 
am noting a pattern here. It seems like every time we want 
information that should be readily available to the public, we 
have to turn up the heat and hold a hearing. For example, the 
BIA finally agreed to post its facility condition index list 
only after my staff made it clear that I planned to ask for it 
to be made publicly available at the hearing we recently held 
on school construction. This pattern to me is unacceptable.
    How will the BIA ensure that the actions it will take in 
response to the OIG's report will be transparent to the public? 
And what can the BIA do to improve the transparency of its 
operations more generally?
    Mr. Echo Hawk. Senator Franken, I believe in transparency 
and I think this issue came up at a prior time that I 
testified. And I can just assure Committee Members that I will 
press to make sure that we disclose the things that we should 
be disclosing in a timely manner.
    I just invite the Committee Members to call me directly if 
you have constituents that are contacting you with concerns 
about timeliness. I can assure you that I will respond to that.
    Senator Franken. We will do that.
    You say in your written testimony, ``We are working hard to 
deploy our resources in the most effective and efficient manner 
possible to improve BIE facilities.'' I want to address the 
issue of costs of replacing BIA schools. BIA's Director of 
Facilities Jack Rever, who is here today, told my staff a while 
back that it cost approximately $30 million to $50 million to 
replace a BIE school. And there is only $52.8 million in the 
President's budget for Indian school construction for this 
entire year. So we have an enormous cost per school and barely 
any money in the budget to fund it.
    Mr. Secretary, is the cost of replacing a BIE school 
comparable for the costs associated with schools in non-tribal 
areas? And if there is a difference, what accounts for it?
    Mr. Echo Hawk. Senator Franken, I do not personally know 
the answer to your question about whether or not there are 
comparable costs. Generally, the schools that we build are in 
isolated areas and I assume that would mean that it would be 
more difficult and costly to construct them. But in terms of 
the structures that we are building, I would have to defer to 
Jack Rever to see if he has any comment. If the Committee would 
like him to respond, I would be glad to have him do so.
    Senator Franken. I would love to know. I would love to have 
some analysis of this because it seems like the schools are 
awfully expensive to build.
    Mr. Echo Hawk. Senator Franken, we can provide an answer to 
that specific question.
    Senator Franken. Thank you. I appreciate that, Mr. 
Secretary.
    Thank you, Mr. Chairman. I apologize to everyone that I 
have to leave to another hearing. Thank you.
    The Chairman. Thank you, Senator Franken.
    Senator Tester?
    Senator Tester. Thank you, Mr. Chairman.
    I want to once again thank the panelists for being here.
    The first question, Larry, this hearing is about BIE 
schools, but overall in Indian Country is there a level of 
violence in Indian schools that is unacceptable, from your 
perspective?
    Mr. Echo Hawk. Senator Tester, yes.
    Senator Tester. Okay. I don't know if you have had the 
ability to make a determination on how many schools it is that 
way. Is it in every school that is in Indian Country? Or is it 
50 percent of them, 75 percent of them? And I know there are a 
lot of factors in there, but do you have any idea on how many 
schools were violent?
    And Mary, if you know this, it would be good to have you 
asked. But I am just curious what percentage of schools in 
Indian Country where violence is a problem.
    Mr. Echo Hawk. Senator Tester, the BIE schools are located 
in 23 different States, but I think generally we all recognize 
that crime in Indian Country is a problem in all regions.
    Senator Tester. Okay.
    Mary, the investigation that you did, the work that you 
have done, did you see violence across the board in every 
school you visited?
    Ms. Kendall. I would say yes. There were indicators of 
violence at all schools. The question of actual violence, we 
haven't had a serious incident, I believe, in Indian schools 
since the Red Lake incident. But the concern we had were the 
indicators and the preparedness of staff and administration on-
site.
    Senator Tester. Okay.
    Larry, back to you. You had mentioned some things that you 
have done in Indian Country more globally when it comes to 
violence, and I appreciate those efforts. Specifically, you 
talked about $8.5 million that is being utilized for safe and 
secure programs, security cameras, teacher training, and 
environmental hazards, those kind of things.
    You are in a position of reasonable authority here. What do 
you think is the key, the one or two or three keys, not only in 
BIE schools, but all schools in Indian Country, that could do 
to help curb the violence?
    Mr. Echo Hawk. Senator Tester, I think the things that we 
are doing right now in response to the I.G. report to provide 
training, as an example, to make sure that our administrators 
and educators understand the things that they should recognize 
that are a precursor to some violent events.
    There are a number of things that we have to deal with when 
we talk about violence and other threats. But let me just 
comment that the reason we have high crime areas in virtually 
every part of Indian Country has to do with healthy families. I 
have given a couple of speeches recently where I said we are 
ratcheting up our criminal law enforcement. We are going to 
reduce crime levels through tough law enforcement. And I think 
we have to do that.
    But I have also said at the end of those speeches, we are 
not going to arrest ourselves out of the problem; that we have 
to create healthy families. And so I personally don't think we 
are probably giving enough attention to that area.
    Senator Tester. I don't want to take us off this topic 
area, but you bring up a very good point and I agree with you. 
We can't take care of it at the back end. We need to start 
taking care of it at the front end.
    Can you tell me what the BIA is doing to help solve or at 
least make inroads into the problem of healthy families?
    Mr. Echo Hawk. Senator Tester, I would say that we are not 
doing enough, but I think to create healthy families, that 
means you need a provider in the home. And when you have Indian 
communities that have 80 percent to 85 percent unemployment, we 
have to spark the economies. We also have to have social 
services available to be able to help lift those families.
    Senator Tester. Okay. I would tend to agree. This is such a 
problem, it is hard to get your arms around it because there 
are so many things that impact it, whether it is healthy 
families, adequate law enforcement, schools that you can be 
proud of. And when you talk about staff training, I am a former 
teacher myself. If I have a choice between going to a school 
that is safe and clean versus a school that is potentially 
unsafe and unclean, I know what decision I am going to make, 
plus the family impact.
    So I will just close by saying this, and very much respect 
your abilities and your leadership in the Department, but we 
have limited dollars and we are really going to have to focus 
on things that are going to make a difference. And your 
leadership in that Department is going to make a big difference 
as the budget cycle rolls on.
    I would appreciate as we go forth with all the dollars for 
Indian Country that you make sure that the emphasis is where it 
needs to be to do the most good. That is kind of a no-brainer, 
but the fact is that I think you are spot-on when you say we 
can't arrest our way out of this situation.
    Thank you.
    The Chairman. Senator Tester, thank you very much.
    Senator Udall?
    Senator Udall. Thank you, Chairman Dorgan.
    Secretary Echo Hawk, I first want to applaud you for the 
initiatives you talked about that you are carrying out in order 
to try to get on top of school safety and school violence and 
all of the problems that plague the BIA schools.
    I think one of the keys is, as you said, mobilizing these 
other resources around the Federal Government, the Department 
of Justice and Health and Human Services, and getting them 
involved in the problem. That is a very positive thing to see 
the Department of Justice take on the issue that you outlined 
here a little bit earlier.
    Let me ask you the question, when you look at the resources 
that are needed to do the job in terms of getting the schools 
safe, and then the lack of resources. Obviously, you are using 
what you have right now. How do you determine in the overall 
picture what are the most serious violations at these schools? 
Where are the kids in the most danger? And then how do you 
tackle those?
    It seems like you have a situation where you have 
significant deterioration overall, but then identifying the 
schools where there are the worst problems and then trying to 
tackle those. What do you bring to this effort to do that?
    Mr. Echo Hawk. Senator Udall, are you speaking about the 
physical structures?
    Senator Udall. The structures, the safety violations, the 
code violations, all of the things that have come out in the 
Inspector General reports and other OIG reports and things like 
that.
    Mr. Echo Hawk. I understand your question to be how do we 
identify the really critical areas.
    Senator Udall. Yes, you have so much to do and it is so 
big, how do you get focused in to pick the things that may be a 
disaster tomorrow, because you can't do them all? That is my 
question. Do you have somebody on top of that, looking at that 
and trying to identify preventing the disasters of tomorrow?
    Mr. Echo Hawk. Well, I think it has already been testified 
to that the kind of problems that we are talking about exist in 
virtually all regions, all schools. To prioritize where we put 
that, there has got to be some attention given to that. I don't 
know if either Jack Rever, he is the one that would probably 
know most about that, or Bart Stevens would have any comment 
about what specifically they are doing.
    In terms of my knowledge base, I know that the problems are 
pervasive and we are trying to deal with them in all schools.
    Senator Udall. Yes, yes. I know you are trying to deal with 
all the problems, it is just that if a school is going to fall 
down and kill 20 kids or 100 kids or something like that 
tomorrow, that is the one I would want you to be on top of, 
rather than the other things that are going to happen down the 
line. That is the kind of urgency that I am talking about in my 
questioning here.
    Mr. Rever. Senator, I am Jack Rever, the Director of 
Facilities, Environmental Culture Resources and Safety, and run 
the evaluation program for the school, measuring the 
deficiencies, measuring the risk. And so it is a risk 
management issue that you have identified.
    We have a multitude of inspection processes that we go 
through. We have the annual workplace safety inspections which 
is OSHA-based reviews, and that is the electrical outlets and 
whether the operating equipment in the shops have proper guards 
on them to make sure the kids or the teachers don't get hurt.
    We also have triennial inspections by engineers and 
engineering technicians to go through and evaluate each 
building that we have, particularly the schools. And in 
addition, of course, the primary responsible is to the people 
on-site, the facility managers. They identify these 
deficiencies to us. We then go through a risk assessment.
    There are two contexts for all risk assessment. One is the 
likelihood of occurrence of whatever might be resulting from 
that deficiency, and then the consequences of that occurrence 
happening. Then we rate those in a category of one through 
five. One is if it is an imminent problem, an emergency. 
Regardless of cost, it is going to be corrected or countered 
within eight hours. That is the requirement and we are very 
successful. Those never show up on any reports because a phone 
call to my staff in Albuquerque to identify that particular 
problem marshals the resources and the dollars to solve it.
    A good example, and this has happened to us. We have had a 
school in which a structural engineer published a report that 
came to my desk within hours that said there was a structural 
problem. I ordered the school closed and the students evacuated 
until we could get a structural engineering firm in there to do 
a full evaluation. That obviously is number one.
    We do not operate schools that represent an imminent danger 
to students, faculty or visitors. That is how we prioritize our 
work. I wish we had sufficient funds to answer every 
deficiency, but we prioritize the most defficient, most risk to 
the students and take care of it immediately. And we work our 
way down to the extent that our fiscal capability lets us do 
that. When I say ``fiscal,'' I mean dollars that let us do 
that.
    That is how we establish priorities for immediate response 
and long-term response for our projects.
    Senator Udall. That is good to hear. That is good to hear.
    Chairman Dorgan, I know I have run over a little bit and 
greatly appreciate your courtesies on that. Thank you.
    The Chairman. Senator Udall, thank you very much.
    Senator Johnson?

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman
    And welcome to the Committee Mr. Echo Hawk. I applaud your 
choice of BIE Director, Mr. Keith Moore, who is a fellow South 
Dakotan and is currently at the University of South Dakota. 
USD's loss is BIE's gain.
    Indian students in South Dakota often have to travel on 
dangerous roads and in dangerous weather conditions. Does BIE 
and BIA have a plan for ensuring student safety while traveling 
to and from schools?
    Mr. Echo Hawk. Senator, I am well aware of the problems 
that exist out there on those roadways. As I have traveled in 
Indian Country, tribal leaders bring that to my attention on a 
regular basis and talk about their road and bridge problems.
    We are working with the Department of Transportation to 
address those needs. There was a substantial amount of ARRA 
funding that came in that allowed us to take care of part of 
the problems, but there are still many needs that exist out 
there.
    We are presently focusing on the equity formula to make 
sure that the funds that we do have available are distributed 
in an equitable way and we have heard a lot of complaints by 
tribal leadership that that is not an equitable process right 
now and we are looking into that.
    Senator Johnson. There are four regional offices without 
safety officers. What actions are being taken to fill these 
personnel gaps?
    Mr. Echo Hawk. Senator, I am aware that we have some of the 
regional offices that do not have a safety officer, and we are 
pressing to make sure that those positions are filled, and that 
the inspections that we are supposed to be doing are actually 
done. I have seen information that shows that that is not 
happening, but that has been brought to my attention and we are 
focusing on that now.
    Senator Johnson. Unsafe school environments also greatly 
contribute to personnel turnover. What efforts are being made 
to improve retention of teachers and administrators?
    Mr. Echo Hawk. That is a good question and a challenging 
question. I think I am going to defer that question to Bart 
Stevens, who is the Acting Director, to comment on specific 
things that are done to retain and recruit teachers.
    Mr. Stevens. Thank you.
    As far as retention and recruitment efforts go within the 
Bureau of Indian Education, we recently hired a recruiter who 
is forming partnerships with local universities and colleges in 
Indian Country to actively recruit administrators and teachers.
    As far as retention of Federal teachers, which are one-
third of our BIE-operated schools, there are incentives in 
place, differential salary increases to retain teachers in 
those more isolated locations, those hard to fill positions.
    As far as the two-thirds of our schools which are tribally 
controlled grant schools, we have no authority on the turnover 
or not of those schools that are tribally operated, but that is 
what we are doing for our Federal programs that are BIE-
controlled.
    Senator Johnson. Ms. Kendall, of the 22 Indian schools 
assessed by OIG, were any schools surveyed in South Dakota? If 
so, which ones?
    Ms. Kendall. Senator Johnson, off the top of my head, I 
don't recall which ones. I would be happy to provide you that 
information separately.
    Senator Johnson. Ms. Kendall, while the BIE has made 
progress on deficiencies identified in the report, many schools 
in South Dakota experience dangerous conditions and violent 
atmospheres. Will there be another evaluation made in the 
future?
    Ms. Kendall. We often will follow up a report with what we 
call a validation effort to make sure that the things that BIE 
in this case have said that they will do in response to our 
reports have in fact been done.
    We want to give them time enough to respond to the report 
and in this case, they have laid out a plan that will be 
finalized by May, 2012. And so it would be at that point that 
we would probably go out and take another look and validate 
their efforts.
    Senator Johnson. In May, 2012?
    Ms. Kendall. Yes, sir.
    Senator Johnson. Thank you.
    The Chairman. Senator Johnson, thank you very much.
    Let me ask a couple of questions, then we have a second 
panel as well.
    Mr. Echo Hawk, my understanding is that current information 
tells us that Department safety officers have identified 85,000 
safety deficiencies at the school system that you run, we run. 
And only 25,000 have been corrected. So we have two-thirds of 
safety deficiencies on a list, apparently, that exists at the 
BIA that are unaddressed.
    How do we reconcile that? How do we justify that? What do 
we tell people, families, taxpayers? This is our school system. 
And I understand that any investigation would show 
deficiencies, but what I don't understand is this. If we have 
reports that show there are 85,000 safety deficiencies and only 
one-third have been corrected, what is the deal?
    Mr. Echo Hawk. Senator Dorgan, obviously that is a problem 
when you have any deficiencies in schools, and to be able to 
only address a third of them is cause for concern. But we are 
addressing the priority deficiencies, as Mr. Rever described. 
We have that process in place to identify the most serious, and 
we are addressing those. But part of the problem is just 
resources, not having the resources to be able to address every 
single one of them.
    The Chairman. But let me ask a question, then. My 
colleague, Senator Udall, had a reporter go do a look at a 
school and did a couple of reports that I think are 
embarrassing to the Federal Government. It is our school 
system. We are responsible for what happens there.
    On the Pine Hill School, you have 275 kids as young as six 
years old. They don't have a fire alarm. And so if there were a 
fire this afternoon in the library, elementary school, middle 
school and high school maintenance shops, new dormitories, none 
of those people in those areas would hear a fire alarm.
    Now, is that an urgency or is that one that somebody would 
say comes under your eight-hour limit? If you don't have a fire 
alarm, send out somebody to fix that fire alarm because if 
there is a fire, kids are going to die?
    So what falls through the cracks here?
    Mr. Echo Hawk. Senator Dorgan, I think on that particular 
report, I am going to ask Jack Rever to respond because he sent 
a team out there to those very same schools to address those 
problems.
    The Chairman. All right.
    Mr. Rever. Mr. Chairman, thank you. It is true that the 
Pine Hill School fire alarm system does not work. Our 
procedures are very specific and this happens throughout the 
Country, every fire alarm system. Many of them are old and they 
fail, parts of them fail, and they go into failure mode.
    It is an absolute requirement within our system that a fire 
watch be posted every hour that that building is occupied.
    The Chairman. A what?
    Mr. Rever. Fire watch, an individual who has the 
responsibility to make sure that there is somebody out 
wandering the halls and looking for potential fire dangers and 
sounding an alarm if necessary.
    The Chairman. Sounding what alarm if the alarm is dead?
    Mr. Rever. There are a variety of ways to do that. You can 
use hand-held warning devices or you can use whistles. You can 
do P.A. system announcements. You can use runners. And those 
are all required under our regulations.
    The Chairman. I understand, but you are not saying it is 
okay if the fire alarm doesn't work because there are 
alternative methods.
    Mr. Rever. Absolutely not, sir, because fire alarms in the 
condition of the one in Pine Hill are so deteriorated that it 
has to be replaced in kind, and we have a project underway 
right now out of the Recovery Act funds that is going to 
replace that fire alarm system.
    So we are aware of it. It is on our priority list. We have 
gone through the risk analysis and we have provided over 
$300,000 just for the fire alarm system itself at Pine Hill.
    The Chairman. Well, the school you run at Standing Rock in 
North Dakota has no fire alarms, no sprinkler system. Does that 
work under your eight-hour rule?
    Mr. Rever. No, sir, it does not, but that is on the list 
also.
    The Chairman. But my point is, look, you guys are not 
coming in here saying look, by God, we need more money because 
kids will die if we don't do this. If there is a fire in 
Standing Rock today, and in the aftermath of that they take a 
look at what went on there, and we know that there is no fire 
alarm capability and no sprinkler system, we knew that and we 
said it is okay for kids to go to school because we know that 
and we will fix it later.
    That is not acceptable. I am just using the fire alarm in 
New Mexico and North Dakota as an example. If you owned an 
apartment building and your fire alarm didn't work; if you as 
an owner weren't apoplectic about that, shame on you. You 
wouldn't dare have the liability of owning an apartment 
building and say it is okay if my fire alarm doesn't work.
    Yet we own a school and we have fire alarms all over the 
Country that don't work and we say, well, we will have somebody 
with a whistle in the hallway. That is not acceptable to me.
    Look, I understand that you can find safety violations 
everywhere in every school system. My point is, Mr. Echo Hawk, 
if you have 85,000 and only one-third are addressed and two-
thirds are not, and they include things like basic safety 
issues, real safety issues that can kill kids.
    Let me just ask another question because I think in many 
ways the folks at New Mexico have done us a service. I don't 
know these people that did it, but the journalists that did 
this said there are cracks in load-bearing walls in the school 
gym. The BIA did direct Alamo to hire a structural engineer to 
evaluate the gym walls. They have not provided the money to pay 
for the evaluation so no one, not the Alamo School, the BIA or 
the students or the faculty who use the gym, know whether it is 
safe or not.
    I don't understand. In this school as well, the fire alarm 
system hasn't worked properly in years. They have been asking 
for upgrades for eight years. I have been in schools where 
buildings were condemned and kids were sitting in classrooms 
packed 30 in a room, one inch apart. Are kids like that going 
to get the same education as a kid in a suburb going into a 
reasonably new school with 18 kids in the classroom? Of course 
they are not. They don't have the same chance. They are just 
not going to get the same education.
    What bothers me is we run two school systems in this 
Country. We run school systems for the military on our military 
bases and we do a pretty job of it, frankly. And we run schools 
for Indian kids through the BIA. And frankly, GAO and other 
reports have shown that the amount of disrepair in that school 
system is unacceptable.
    Mr. Echo Hawk, I would hope you would risk your job coming 
here and saying, you know what? The budget that has been 
requested is radically insufficient. We have had people do that 
and get fired, because I understand the responsibility of 
witnesses to support the President's budget. But we are so far 
short of the money necessary to protect these kids in these 
school systems, we just have to do better.
    What I am going to do is I am going to ask the Inspector 
General, and by the way, we have had far too little attention 
from the Inspector General's Office on Indian issues, let me 
say. We have taken a look at the activities in the last eight 
and 10 years of what has been done over in the Interior 
Department with respect to BIA issues, and I would like to see 
much more activity on Indian issues. I will be having a chance 
to visit with the Inspector General.
    We appreciate your work. We just want more attention to 
things that I think are urgent. I am going to be asking both 
the GAO and the Inspector General to take a look at this, but I 
would also like to ask Mr. Echo Hawk to have the BIA submit to 
us a report and tell us if there are 85,000 safety violations 
out there that have been identified, two-thirds of them that 
have not been corrected, what is the criteria by which you will 
decide when to correct things and what things to correct if you 
are in fact short of money, as you say? And I believe you are 
short of money.
    I think this hearing tells me that there are kids whose 
lives are in danger because we have safety violations that we 
don't judge to be threats to life and limb. That is not 
acceptable to me. You might say, well, it is not acceptable to 
me either, but give me the money. I say, yes, well, you work 
for an Administration that submits a budget.
    So let's try to work through this and figure out what our 
responsibilities are. I appreciate your coming here, and I 
didn't mean to lecture you. I guess I must have meant to 
because I did, but it bothers me a lot because I have been to a 
lot of Indian schools. And frankly, a lot of these little kids 
that walk through these doors are not getting the same 
opportunity in life as other kids. And because we run these 
schools, I want these kids that walk through these doors to 
think and for us to think we are sending them through the 
doorways to schools that are some of the best in the world. We 
are not. They are some of the worst in the Country in some 
cases.
    I don't want to tarnish all Indian schools because some do 
a great job and some are up to snuff, but we are so far short 
of the work that needs to be done so that we are proud of these 
schools. We still have a lot to do.
    So thank you for coming today. We are going to go to the 
next panel. I want to be in touch with all four of you and 
continue this discussion because it is very, very important. 
Thank you very much.
    I am going to be offering an amendment on the Floor in just 
a moment, and I have asked Senator Udall if he would chair for 
the second panel. I will be back in about 30 minutes.
    By the way, Mr. Secretary, if you wanted a parting comment, 
you are sure welcome to make it. I didn't mean to cut you off. 
Did you wish to make a parting comment?
    Mr. Echo Hawk. Thank you, Senator Dorgan, just briefly.
    Just to follow up to your comment, I did say in my 
testimony today that the resources were inadequate. We would 
try to do the best job we could. But I recall that when I 
appeared before this Committee during my confirmation, I was 
asked a question about whether or not I would tell what the 
need is and I said I would. And I will continue to do that. I 
need to do it more forcefully.
    I appreciate your comments today. I am not too worried 
about losing my job. I didn't come back here to Washington, 
D.C. to get a step in some direction to another career. I am at 
the end of my career. I have a secure job waiting for me as a 
law professor when I leave, and I will try to be energetic and 
forceful in communicating those messages, because what we are 
talking about here today is vitally important.
    Thank you very much.
    The Chairman. Mr. Secretary, I know you have the same 
interests at heart that I and Senator Udall do as well. I want 
you to succeed in your job. I want you to have more resources 
with which to do it and to use these skills in a BIA that works 
well and addresses problem.
    Thank you very much for being here.
    To our next witnesses, I am going to ask my colleague from 
New Mexico to introduce you and begin. I will be introducing 
the amendment on the floor and be back here hopefully before 
you are completed.
    Senator Udall, thank you very much for your courtesy of 
doing this. If you will introduce the next panel.
    Senator Udall. [Presiding.] Thank you very much.
    I see Assistant Secretary Echo Hawk is still here. One of 
the things, and we will put this in a question in writing, but 
my staff has given me to look at the total educational 
construction funding here. You look at fiscal year 2004 through 
2010, there are large amounts of money being carried over from 
year to year, significant amounts of money, millions and 
millions of dollars.
    So I am wondering with all this money being carried over, 
we should be able to fix a lot of the things that are going on. 
So it isn't just an issue of additional resources. It is an 
issue of using the resources that you have from year to year.
    I am going to do everything I can, working with Senator 
Dorgan and the rest of the Committee, to see that we get the 
message all the way up to the President that he needs to come 
forward with a budget that is going to take care of these 
situations when it comes to our school children.
    So with that, let me welcome the next panel. We have with 
us Mr. Quinton Roman Nose, Treasurer, National Indian Education 
Association, Washington, D.C. We also have Dr. Anthony 
Fairbanks, who I said some nice introductory comments about 
earlier, Superintendent, Pueblo of Laguna, Department of 
Education.
    I believe our other witness was unable to make it. Is that 
correct? So we will go forward with both of you.
    Please, Mr. Roman Nose, go ahead.

  STATEMENT OF QUINTON ROMAN NOSE, TREASURER, NATIONAL INDIAN 
                     EDUCATION ASSOCIATION

    Mr. Roman Nose. Chairman Udall, Members of the Senate 
Committee on Indian Affairs, thank you for this opportunity to 
submit testimony on behalf of the National Indian Education 
Association about the shocking disparities in the safety of the 
Bureau of Indian Education Schools.
    Founded in 1970, NIEA is the largest Native American 
education organization in the Nation, with a membership of over 
3,000 American Indian and Alaska Native and Native Hawaiian 
educators, tribal leaders, school administrators, teachers, 
elders, parents and students. NIEA is dedicated to promoting 
native education issues and embraces every opportunity to 
advocate for the unique educational and culturally related 
academic needs of native students.
    NIEA advocates for the unique educational and culturally 
related academic needs of native students, working to ensure 
that the Federal Government upholds its responsibility for the 
education of native students through the provision of direct 
educational services and facilities that are safe and 
structurally sound.
    This is incumbent upon the trust relationship of the United 
States Government with tribal nations. It includes the 
responsibility of ensuring educational quality and access.
    The environment in which instruction and educational 
services are provided is critical to the achievement of our 
students and their ability to achieve academically and to be 
healthy, successful members of their Native American 
communities. However, appalling disparities exist in the levels 
of safety, both structural and personal, in the Bureau of 
Indian Education-funded schools, creating educational 
environments that are a threat to the emotional and physical 
well being of Native American students.
    In August, 2008, a report issued by the OIG at the 
Department of Interior entitled ``Evaluation of Controls to 
Prevent Violence at BIE-Operated Education Facilities 
documented the lack of laws, presidential orders, or directives 
outlining safety measures for Indian schools. Even more 
shocking was the fact that grant agreements for Indian schools 
do not require a plan for addressing and preventing of campus 
violence.
    In a February, 2010 follow-up report from DOI OIG, 
Evaluation Report: School Violence Prevention, an assessment of 
safety measures and procedures at 22 Indian Schools revealed 
many indicators of potential violence and deficiencies in 
school policies aimed at preventing violence, and substantial 
deficiencies in preventive and emergency safety procedures, 
resulting in schools being dangerously unprepared to prevent 
violence and to ensure the safety of students and staff.
    Given these long-term and continuing conditions, native 
families, communities and tribal governments remain appalled 
that these concerns remain unaddressed, while the well being of 
Native American students hangs in the balance. From the 
experience of our membership in the Native American communities 
in Indian Country, critical areas needing immediate action 
include funding to repair structural and equipment 
deficiencies, appropriate preparation and training of personnel 
and staff, implementation or development of policies and 
procedures that impact school safety, and increase in useful 
collaboration and cooperation among tribal, Federal and local 
agencies with a role in ensuring student safety and well being.
    Funding to correct disparity and dangerous conditions on 
Indian facilities. First and foremost is the issue of 
structural deficiencies and lack of funding to address them 
remains a paramount concern. Of the 4,495 educational buildings 
in the BIE inventory, half are more than 30 years old and more 
than 20 percent are older than 50 years; 65 percent of the BIE 
school administrators report the physical condition of one or 
more school buildings as inadequate.
    Although educational conditions have improved dramatically 
over the last few years, the deferred maintenance backlog is 
still estimated to be over $500 million and increases annually 
by $56.5 million. Of the 184 BIE Indian schools, one-third of 
the Indian schools are in poor condition and in need of either 
replacement or substantial repair.
    In addition, lack of consistent functioning electrical 
systems, unrepaired gaping holes in security fences, broken or 
uninstalled surveillance cameras, and unsecurable doors and 
windows directly affect the ability of schools to ensure 
student and staff safety.
    In 1997, GAO issued a report, Reported Condition and Costs 
to Repair Schools Funded by the BIA, that documented an 
inventory of repair needs for educational facilities totaling 
$754 million. In 2004, the backlog for construction and repair 
was reported to have grown to $942 million.
    More recently, in March of 2008, the Consensus Building 
Institute, with the United States Institute of Environmental 
Conflict Resolution, issued a Final Convening Report: 
Negotiated Rulemaking Committee on Bureau of Indian Affairs-
Funded Schools Facilities Construction. CBI reported in their 
findings of the conditions of the schools that security needs 
and related funding are major concerns for many schools, aging 
or poor design may lead to a substandard educational 
environment, and operation and maintenance needs are not 
matched by operation and maintenance annual funding.
    In May of 2007, the OIG, Department of Interior, issued 
BIA/BIE: Schools In Need of Immediate Action, a flash report 
that describes the conditions at BIE schools that require 
immediate action to protect health and safety of students and 
faculty.
    Although the Inspector General visited 13 schools as part 
of their investigation, four schools were highlighted in the 
flash report. In the report, the Inspector General cited the 
deterioration ranging from minor deficiencies such as leaking 
roofs to severe deficiencies such as classroom walls buckling 
and separating from their foundation.
    In his conclusion, the Inspector General stated that 
``failure to mitigate these conditions will likely cause injury 
or death to children and school employees.'' The flash report 
describes the alarming and life-threatening situation at BIA 
schools that the Federal Government has created in its failure 
to properly maintain the schools. Native children should not 
have to risk their lives on a daily basis to access the 
fundamental right to an education.
    Testifying at the NIEA-sponsored BIA/BIE regional hearing 
in the Navajo Nation, Window Rock, Arizona, Hopi Tribal 
Chairman Benjamin Nuvamsa stated, ``Our students are at 
extremely high risk because of exposure to hazardous materials 
in our school buildings. Recently, severe reductions in annual 
appropriations for the building operations, maintenance and 
repairs, OM&R, program results in the ever-increasing number of 
projects placed in the Facilities Maintenance Inventory System, 
FMIS. While waiting for funding, our students and staff are 
subjected to exposure to hazardous materials. Almost all 
schools have asbestos and radon issues which put the students 
and staff at risk.''
    The purpose of education construction is to permit BIE to 
provide structurally sound buildings in which native children 
can learn without leaking roofs and peeling paint. It is unjust 
to expect our students to succeed academically when we fail to 
provide hem with a proper environment to achieve success. The 
amount of funding over the past few years has failed to fund 
tribes at the rate of inflation, once again exacerbating the 
hardships faced by Native American students.
    Further, the funding that has been allocated over the past 
few years will not keep pace with the tremendous backlog of 
Indian schools and facilities in need of replacement or repair.
    The BIA's budget has historically been inadequate to meet 
the needs of Native Americans and consequently Indian school 
needs have multiplied. For 2008, the fiscal year funding level 
was $142.94 million. For fiscal year 2007, the funding level 
was $204.956 million, and for 2006, the funding level was 
$206.787 million.
    Congress and BIA have sought to justify the decrease over 
the past few years by stating it wants to finish ongoing 
projects. However, NIEA has repeatedly heard from several BIE 
schools who have indicated their shovel ready status.
    While the Recovery Act did provide $450 million to be 
shared among BIA school construction and repairs, detention 
facilities, roads, and irrigation projects, this funding has 
provided little headway considering the lengthy list of schools 
waiting to build and repair their facilities. Therefore, NIEA 
previously requested a $150.4 million increase from fiscal year 
2010 enacted level of $112.994 million for a total of $263.4 
million in fiscal year 2011 for the BIA for Indian school 
construction and repair.
    The continued deterioration of facilities on Indian land is 
not only a Federal responsibility, it has become a liability of 
the Federal Government. Old and exceeding their life expectancy 
by decades, BIA schools require consistent increases in 
facilities maintenance without offsetting decreases in other 
programs if 48,000 Indian students are to be educated in 
structurally sound schools.
    However, in addition to being structurally sound, these 
schools must also be structurally safe with adequate funding to 
address school safety through the use of perimeter fending to 
secure school grounds, surveillance cameras and metal detectors 
to deter weapons and on-campus crime, and improved locks and 
other physical security measures.
    While structural concerns may be the most visible 
indicators of school safety, several other areas of critical 
concern also need to be swiftly and adequately addressed.
    As noted in the 2010 evaluation report, the staff in many 
Indian education facilities are unaware of or unable to 
implement basic safe plans such as performing lock-downs or 
school evaluation drills. High staff turnover, including 
principals and other administrators, results in a lack of 
institutional knowledge about safety procedures or available 
resources used to address and defuse potentially violent 
situations.
    In addition, lack of funding and a consistent plan for the 
training of incoming personnel means that most staff members 
lack adequate training in areas critical to student well being. 
Staff need to be trained to recognize and address indicators of 
potential violence, including gangs and suicide prevention, how 
to address substance abuse, bullying prevention, and more.
    In addition, it is important to have adequate funding to 
provide hiring and retention of staff who can provide students 
with counseling and therapeutic interventions, while also 
helping to train other school staff in appropriate measures for 
dealing with potential violent situations.
    Previous reports about school conditions and safety 
measures indicate that implementation or enforcement of 
policies and procedures that would help to ensure students and 
staff safety are often not implemented or enforced.
    For example, dress codes that prevent the wearing of gang-
related colors in schools may not be enforced with consistency 
or consequences. Also, procedures restricting and monitoring 
visitor access to schools are critical in maintaining a safe 
school environment.
    Senator Udall. Mr. Roman Nose, could you try to wrap and we 
will make sure and put your full statement in the record.
    Mr. Roman Nose. Okay.
    Senator Udall. We also want to give Dr. Fairbanks time.
    Mr. Roman Nose. I apologize. I will go to the conclusion. I 
am sorry. I didn't look at the time.
    I would like to conclude, as an official interviewed in the 
August 2008 OIG report stated, ``It is a matter of when and 
where, not if, a violent act would happen'' in Indian education 
facilities. It is a collective responsibility to do all that we 
can to ensure that our children do not have to risk their lives 
in deteriorating buildings without adequate supports for their 
well-being and personal safety in order to obtain an education.
    NIEA thanks the Committee for its hard work and diligence 
on behalf of the Native American communities and hopes that 
elevated Congressional engagement around the issues of Indian 
school safety will promote and ensure much-needed improvements. 
With your support, we are hopeful that Indian Country will have 
the resources, oversight and assistance it needs to create the 
kind of educational environment that our native children 
deserve.
    Thank you very much.
    [The prepared statement of Mr. Roman Nose follows:]

 Prepared Statement of Quinton Roman Nose, Treasurer, National Indian 
                         Education Association

    Chairman Dorgan and Members of the Senate Committee on Indian 
Affairs, thank you for this opportunity to submit testimony on behalf 
of the National Indian Education Association about the shocking 
disparity in the safety of Bureau of Indian Education (BIE) schools.
    Founded in 1970, NIEA is the largest Native education organization 
in the nation with a membership of over 3,000 American Indian, Alaska 
Native and Native Hawaiian educators, tribal leaders, school 
administrators, teachers, elders, parents, and students. NIEA is 
dedicated to promoting Native education issues and embraces every 
opportunity to advocate for the unique educational and culturally-
related academic needs of Native students.
    NIEA advocates for the unique educational and culturally related 
academic needs of Native students, working to ensure that the Federal 
Government upholds its responsibility for the education of Native 
students through the provision of direct educational services and 
facilities that are safe and structurally sound. This is incumbent upon 
the trust relationship of the United States government with tribal 
nations and includes the responsibility of ensuring educational quality 
and access. The environment in which instruction and educational 
services are provided is critical to the achievement of our students 
and their ability to achieve academically and to be healthy, successful 
members of their communities.
    However, appalling disparities exist in the levels of safety, both 
structural and personal, in Bureau of Indian Education funded schools, 
creating educational environments that are a threat to the emotional 
and physical well-being of Native students.
    An August 2008 report issued by the Office of the Inspector General 
(OIG), Department of the Interior (DOI) titled Evaluation of Controls 
to Prevent Violence at Bureau of Indian Education Operated Education 
Facilities documented the lack of ``laws, presidential orders, or 
directives outlining safety measures for Indian Schools.'' \1\ Even 
more shocking was the fact that grant agreements for Indian schools do 
not require a plan for addressing and preventing of campus violence.
---------------------------------------------------------------------------
    \1\ The Office of the Inspector General, Department of the Interior 
Evaluation of Controls to Prevent Violence at Bureau of Indian 
Education Operated Education Facilities (August, 2008), p. 7.
---------------------------------------------------------------------------
    In a February 2010 follow up report from the DOI OIG, Evaluation 
Report: School Violence Prevention, an assessment of safety measures 
and procedures at 22 Indian schools ``revealed many indicators of 
potential violence, deficiencies in school policies aimed at preventing 
violence, and substantial deficiencies in preventative and emergency 
safety procedures resulting in schools being dangerously unprepared to 
prevent violence and ensure the safety of students and staff.'' \2\
---------------------------------------------------------------------------
    \2\ The Office of the Inspector General, Department of the Interior 
Evaluation Report: School Violence Prevention (February, 2010), p. 2.
---------------------------------------------------------------------------
    Given these long term and continuing conditions, Native families, 
communities, and tribal governments remain appalled that these concerns 
remain unaddressed while the well-being of Native students hangs in the 
balance. From the experiences of our membership and Native communities 
in Indian Country, critical areas needing immediate action include 
funding to repair and correct structural or equipment deficiencies, 
appropriate preparation and training of personnel and staff, 
implementation or development of policies and procedures that impact 
school safety, and increased and useful collaboration and cooperation 
among tribal, federal, and local agencies with a role in ensuring 
student safety and well-being

Funding to Correct the Disrepair and Dangerous Conditions of Indian 
        Education Facilities
    First and foremost is the issue of structural deficiencies and the 
lack of funding to address them remain of paramount concern. Of the 
4,495 education buildings in the BIE inventory, half are more than 30 
years old and more than twenty percent (20 percent) are older than 
fifty years. Sixty-five percent (65 percent) of BIE school 
administrators report the physical condition of one or more school 
buildings as inadequate. Although education construction has improved 
dramatically over the last few years, the deferred maintenance backlog 
is still estimated to be over $500 million and increases annually by 
$56.5 million. Of the 184 BIE Indian schools, one-third of Indian 
schools are in poor condition and in need of either replacement or 
substantial repair. In addition, lack of consistently functioning 
electrical systems, unrepaired gaping holes in security fences, broken 
or uninstalled surveillance cameras, and unsecurable doors and windows 
directly affect the ability of schools to ensure student and staff 
safety.
    In 1997, GAO issued a report, Reported Condition and Costs to 
Repair Schools Funded by the Bureau of Indian Affairs that documented 
an inventory of repair needs for education facilities totaling $754 
million. In 2004 the backlog for construction and repair was reported 
to have grown to $942 million. More recently, in March of 2008, the 
Consensus Building Institute (CBI) with the U.S. Institute for 
Environmental Conflict Resolution issued a Final Convening Report: 
Negotiated Rulemaking Committee on Bureau of Indian Affairs-Funded 
Schools Facilities Construction. CBI reported in their findings of the 
conditions of the schools that ``security needs and related funding are 
major sources of concern for many schools,'' ``aging or poor design may 
lead to a substandard educational environment,'' ``operation and 
maintenance needs are not matched by operation and maintenance annual 
funding.'' \3\
---------------------------------------------------------------------------
    \3\ The Consensus Building Institute with the U.S. Institute for 
Environmental Conflict Resolution (March 5, 2008). Final Convening 
Report: Negotiated Rulemaking Committee on Bureau of Indian Affairs-
Funded School Facilities Construction, pp. 16-18.
---------------------------------------------------------------------------
    In May of 2007, the Office of the Inspector General, Department of 
Interior, issued Bureau of Indian Affairs and Bureau of Indian 
Education: Schools in Need of Immediate Action, a flash report that 
describes the conditions at BIE schools that require ``immediate action 
to protect the health and safety of students and faculty.'' Although 
the Inspector General visited thirteen schools as part of their 
investigation, four schools were highlighted in the flash report--
Chinle Boarding School, Shonto Preparatory School, Keams Canyon School, 
and the Kayenta Boarding School. In the report, the Inspector General 
cites deterioration ranging from ``minor deficiencies such as leaking 
roofs to severe deficiencies such as classroom walls buckling and 
separating from their foundation.'' In his conclusion, the Inspector 
General states that the ``failure to mitigate these conditions will 
likely cause injury or death to children and school employees.'' This 
flash report describes the alarming and life-threatening situation at 
BIE schools that the Federal Government has created in its failure to 
properly maintain these schools. Native children should not have to 
risk their lives on a daily basis to access their fundamental right to 
an education.
    Testifying at the NIEA-sponsored BIA/BIE regional hearing in Navajo 
Nation/Window Rock, AZ, Hopi Tribal Chairman, Benjamin Nuvamsa stated, 
``our students are at extremely high risk because of exposure to 
hazardous materials in our school facilities. [Recently] severe 
reductions in annual appropriations for the building Operations, 
Maintenance and Repairs (OM&R) program results in the ever-increasing 
number of projects placed in the Facilities Maintenance Inventory 
System (FMIS). While waiting for funding, our students and staff are 
subjected to exposure to hazardous materials. Almost all schools have 
asbestos and radon issues which put the students and staff at risk.'' 
\4\
---------------------------------------------------------------------------
    \4\ Bureau of Indian Affairs and Bureau of Indian Education: 
Hearings before the National Indian Education Association, Widow Rock, 
AZ (August 21, 2008) (testimony of Benjamin Nuvamsa, Hopi Tribal 
Chairman).
---------------------------------------------------------------------------
    The purpose of education construction is to permit BIE to provide 
structurally sound buildings in which Native children can learn without 
leaking roofs and peeling paint. It is unjust to expect our students to 
succeed academically when we fail to provide them with a proper 
environment to achieve success. The amount of funding over the past few 
years has failed to fund tribes at the rate of inflation, once again 
exacerbating the hardships faced by Native American students. Further, 
the funding that has been allocated over the past few years will not 
keep pace with the tremendous backlog of Indian schools and facilities 
in need of replacement or repair.
    The Bureau of Indian Affairs (BIA)'s budget has historically been 
inadequate to meet the needs of Native Americans and, consequently, 
Indian school needs have multiplied. For FY 2008, the funding level was 
$142.94 million, for FY 2007, the funding level was $204.956 million; 
and, for FY 2006, the funding level was $206.787 million. Congress and 
the BIA has sought to justify the decrease over the past few years by 
stating that it wants to finish ongoing projects, however NIEA has 
repeatedly heard from several BIE schools who have indicated their 
``shovel ready'' status. While the Recovery Act did provide $450 
million to be shared among BIA school construction and repairs, 
detention facilities, roads, and irrigation projects, this funding has 
provided little headway considering the lengthy list of schools waiting 
to build and repair their facilities. Therefore, NIEA previously 
requested a $150.4 million increase from the FY 2010 enacted level of 
$112.994 million for a total of $263.4 million in FY 2011 to the BIA 
for Indian school construction and repair.
    The continued deterioration of facilities on Indian land is not 
only a federal responsibility; it has become a liability of the Federal 
Government. Old and exceeding their life expectancy by decades, BIA 
schools require consistent increases in facilities maintenance without 
offsetting decreases in other programs, if 48,000 Indian students are 
to be educated in structurally sound schools. However, it addition to 
being structurally sound, these schools must also be structurally safe. 
With adequate funding to address school safety through the use of 
perimeter fencing to secure school grounds, surveillance cameras and 
metals detectors to deter weapons and on campus crime, and improved 
locks and other physical security measures.
    While structural concerns may be the most visible indicators of 
school safety, several other areas of critical concern also need to be 
swiftly and adequately addressed.

Personnel
    As noted in the February 2010 evaluation report, the staff in many 
Indian education facilities are unaware of or unable to implement basic 
safe plans such as performing lock down or school evaluation drills. 
High staff turnover, including principals and other administrators, 
results in a lack of institutional knowledge about safety procedures or 
available resources used to address and defuse potentially violent 
situations. In addition, lack of funding and a consistent plan for the 
training of incoming personnel means that most staff members lack 
adequate training areas critical to student well-being. Staff need to 
be trained to recognize and address indicators of potential violence, 
including gang and suicide prevention, how to address substance abuse, 
bullying prevention, and more. In addition, it is important to have 
adequate funding to support the hiring and retention of staff who can 
provide students with counseling and therapeutic interventions while 
also helping to train other school staff in appropriate measures for 
dealing with potential violent situations.

Policies and Procedures
    Previous reports about school conditions and safety measures 
indicate that implementation or enforcement of policies and procedures 
that would help to ensure students and staff safety are often not 
implemented or enforced. For example, dress codes that prevent the 
wearing of gang related colors in schools may be not be enforced with 
consistency or consequences. Also, procedures restricting and 
monitoring visitor access to schools are critical in maintaining a safe 
school environment. While this may be heavily dependent on the quality 
of the physical building and its entrances, exits, locks, and other 
devices, a highly quality locking door is only as useful when it gets 
locked. According to both the 2008 and the 2010 OIG reports, the 
evaluators found multiple doors open or unlocked during the school day. 
Critical procedures also include the need to standardize and improve 
the NASIS (Native American Student Information System) and the FMIS 
(Facility Management System) systems. School personnel report 
struggling to use either system due to multiple procedural obstacles, 
including lack of consistent procedures for entering data and no 
ability to use the information for monitoring violent incidents or to 
analyze for predicting or identifying a specific trend or issue for 
intervention as is the case with NASIS. Or school personnel have very 
limited access and ability to enter or share data, including school 
facility managers being unable to enter basic safety deficiencies of 
school facilities with respect to the FMIS. \5\ And related to this is 
a need for oversight and support to ensure that annual safety 
inspections are completed and verified--with deficiencies addressed 
before the next safety inspection is due. Procedures also need to 
address and rectify policies that are counterproductive and outdated. 
For example, facilities are currently only reimbursed 49 cents on the 
dollar for scheduled maintenance, making it next to financially 
impossible to make much needed improvements.
---------------------------------------------------------------------------
    \5\ Currently only safety directors can enter data into the FMIS 
system and many are not based onsite at school facilities.
---------------------------------------------------------------------------
Coordination and Collaboration
    Currently multiple agencies, including tribal, BIE, Health and 
Human Services (HHS), Indian Health Services (HIS), state and local 
laws enforcement and social services all assume different roles and 
responsibilities for students and their families. A lack of 
coordination and collaboration among the various agencies has resulted 
in little to no service provision for Native students in schools, or 
services not being rendered in a timely manner. Therefore, having 
requirements for collaboration built into funding sources or as part of 
mandatory programmatic objectives would help overcome jurisdictional 
conflicts and provide incentives for collaboration. Also, there is a 
critical need for transparent and strong leadership by BIE in helping 
schools and tribes to address safety concerns through the use of 
workable safety plans, or even the implementation of a general BIE 
safety plan. Tribal communities are in the best position to advise and 
help develop culturally relevant and appropriate methods for addressing 
issues like bullying prevention, substance abuse prevention, anti-gang 
programming, and suicide prevention for their Native students. 
Therefore, BIE also needs to firmly support the role of tribes as the 
best resource for knowledge about culturally relevant interventions, 
such as peace keeping circles, that provide students and schools with 
culturally appropriate tools and models for behavior and conflict 
resolution. Finally, increased transparency on the part of BIE is a 
necessary component in correcting safety concerns in BIE funded 
schools. Plans for how to address the concerns raised in recent OIG 
reports should be publicly shared with a request for feedback and input 
from tribes and Native communities. Also, accurate lists and plans for 
addressing structural deficiencies and distribution of resources to 
schools is important for school planning and prioritizing of even minor 
repairs or safety equipment purchases.

Conclusion
    As an official interviewed in the August 2008 OIG report stated, it 
is ``a matter of `when and where'--not `if'--a violent act would 
happen'' in Indian education facilities. \6\ It is a collective 
responsibility to do all that we can to ensure that our children do not 
have to risk their lives in deteriorating buildings without adequate 
supports for their wellbeing and personal safety in order to obtain an 
education. NIEA thanks the Committee for its hard work and diligence on 
behalf of Native communities and hopes that elevated congressional 
engagement around the issue of Indian school safety will help promote 
and ensure much needed improvements. With your support, we are hopeful 
that Indian Country will have the resources, oversight, and assistance 
it needs to create the kind of educational environment that Native 
children deserve.
---------------------------------------------------------------------------
    \6\ The Office of the Inspector General, Department of the Interior 
Evaluation of Controls to Prevent Violence at Bureau of Indian 
Education Operated Education Facilities (August, 2008), p. 1.

    Senator Udall. Thank you very much.
    Please, Dr. Fairbanks, go ahead.

 STATEMENT OF DR. ANTHONY FAIRBANKS, SUPERINTENDENT, PUEBLO OF 
                 LAGUNA DEPARTMENT OF EDUCATION

    Dr. Fairbanks. Good morning, Chairman Udall and Members of 
the United States Senate Committee on Indian Affairs. I bring 
greetings from the Pueblo of Laguna, Governor John Antonio and 
the Laguna Pueblo Council, Laguna Department of Education Board 
Members and the staff and students to relate our story.
    Thank you very much for allowing me to be here today. It is 
quite an honor.
    Education is one of the top priorities for the Pueblo of 
Laguna and improving the education for the students of Laguna, 
New Mexico is an important ongoing effort. Of course, safety 
for our students is our first and foremost consideration. 
Students must have a safe learning environment to be 
academically successful.
    The intent of my testimony is two-fold: one, to raise 
awareness of the serious safety concerns of the Laguna 
Elementary School; two, to advocate the need for all Bureau of 
Indian Education Schools to be safe learning environments.
    Laguna schools struggle with the same issues other Bureau 
of Indian Education schools across the United States deal with 
on a regular basis: deteriorating infrastructure, buildings 
that are beyond their life expectancy, and unsecured open 
campuses, none of which can be remedied with the current 
limited financial resources available for improving or building 
new schools.
    For example, in the fall of 2007, we were notified to close 
the Laguna Elementary School due to an assessment that revealed 
several cracks throughout the gymnasium and several classroom 
walls. After additional investigations, we were notified that 
our students and staff were safe, barring a significant seismic 
event or a microburst wind gust.
    Two years later, a seismic event did occur just a few miles 
away from our school. Thankfully, there were no injuries from 
the 3.0 earthquake. However, it was quite concerning since the 
study indicated our school barring a significant seismic event, 
and warrants the need for a new school.
    Our internal assessments revealed that the school's 
structural design developed in the 1960s does not sufficiently 
safeguard against potential violence. There are no centralized 
entries or exit points due to the open parameters of the 
campus.
    The Laguna Elementary School currently has 41 backlogged 
deficiencies. The current cost to repair and/or replace these 
deficiencies is over $12 million.
    Does Indian school safety get a passing grade? I will 
answer this question using the common language of our adequate 
yearly progress report, AYP standards, and my assessment is 
that we are at beginning steps. I believe we are making 
progress, but continue to have a long way to go.
    I sincerely thank Chairman Dorgan and members of the United 
States Senate Committee on Indian Affairs for your time and 
interest with this very important matter. A special thanks and 
appreciation is extended to New Mexico Senator Udall for his 
continued support regarding these issues.
    I also appreciate Senator Franken's recognition of the Red 
Lake, Minnesota high school students that were killed five 
years ago. Seven of those students were my former students, 
actually, when I was in Red Lake as a football coach and 
principal of an elementary school. The unarmed security guard, 
Derrick Brun, was my cousin. So I appreciate Senator Franken's 
interest and support to help advocate for safe school 
environments.
    I also want to thank Assistant Secretary Echo Hawk, Mr. 
Bart Stevens and Mr. Jack Rever. I know first-hand of their 
reputable leadership and I appreciate their sincere efforts 
very much.
    I respectfully urge the United States Senate Committee on 
Indian Affairs to advocate for increased allocations of 
facility repair and new school construction funds to meet the 
needs of all Bureau of Indian Education schools.
    In addition to more funds, there is room for improvement 
within the Bureau's facilities management information system. 
More consistent, proactive procedures addressing structural 
concerns in a timely fashion will allow for increased 
collaborative efforts.
    All children are entitled to have a safe and secure 
learning environment. With your continued support and 
assistance, we can make this much-needed initiative a reality. 
If there is anything the Pueblo of Laguna or I can do to assist 
your efforts in addressing these issues, please feel free to 
contact us.
    Thank you very much and God bless.
    [The prepared statement of Mr. Fairbanks follows:]

Prepared Statement of Dr. Anthony Fairbanks, Superintendent, Pueblo of 
                     Laguna Department of Education

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Udall. Thank you, and thanks to both of you.
    Dr. Fairbanks, in your testimony you describe a safety 
first model where you need to use the school's operating funds 
to fix the safety deficiencies at the schools to ensure that 
students and staff are safe. Even though you later seek 
reimbursement for those expenses, you say that this process 
detracts from your ability to provide quality academic 
services.
    Can you describe the ways that this safety first method of 
ensuring student safety affects the academic services at your 
school?
    Dr. Fairbanks. Yes, sir, Mr. Chairman. The purpose of our 
role within the leadership in Laguna is that we do take safety 
very seriously. However, we are very limited with facility 
construction or maintenance funds. We do not receive enough in 
order to meet all the needs in safety concerns of our school. 
As I stated within my testimony, we have 41 deficiencies, well 
over $12 million.
    But if there is anything that we can do in order to fund an 
appropriate safety measure, we will do that. However, those 
funds need to come out of our general fund or our 
administrative funds, and that in turn does detract from our 
academic services that we are able to invest in also. So it is 
a balancing act and of course it is a matter of staying within 
our appropriated budgets.
    Senator Udall. And clearly you want to give the top 
academic experience to your students, but because of these 
safety issues you are having to pull money away from that 
academic side. And that is obviously unacceptable.
    You describe the current system as reactive, rather than 
proactive. What recommendations do you have for making the 
system more proactive?
    Dr. Fairbanks. Mr. Chairman, thank you very much. I believe 
the system needs to be streamlined. And again, if we can plan 
and anticipate any potential problems or hazards to our 
students throughout the system itself I think would be very 
appropriate in addressing all of these concerns, again being 
proactive rather than reactive.
    Senator Udall. Thank you.
    Mr. Roman Nose, I agree with you that in order to address 
many of the safety issues related to gangs, to violence, 
bullying and substance abuse we need more involvement from 
tribal communities. In what ways do you think tribal 
communities and the schools could partner to address some of 
the safety issues related to violence within their communities?
    Mr. Roman Nose. I think there are several ways. One that 
come to mind as a school board member of Riverside Indian 
School in Anadarko, Oklahoma, I would like to see more training 
with school board members and make this information more 
available to the public and to parents. It is a very difficult 
system to get information to parents, especially if you reside 
in a residential school. But I think more outreach to parents 
and tribal officials, school board members needs to be in 
order.
    These are very complicated issues. I think the BIA needs 
tribal input in all areas.
    Senator Udall. Thank you.
    Before I close the hearing, I want to just make two 
comments. As Chairman Dorgan said, the reporting on these 
issues out in New Mexico and in other places I think has been 
very helpful in terms of moving us forward, exposing the 
problems that are out there, the deficiencies, the safety 
issues, and helping all of us address these and move down the 
road.
    And secondly, I want to echo what Secretary Echo Hawk said. 
It seems to me the key, I mean both of these witnesses here and 
the previous witnesses were focusing on education, but the real 
key is in healthy families in these native communities. And we 
have to get employment into these communities. If you have 
communities, which we do on the Navajo Reservation, with 
unemployment at 50 percent or in some other pueblo communities 
higher than that, 60 percent and 70 percent unemployment, I 
don't see how you can have stable families.
    And so one of the policy efforts has to be how do we get 
capital, how do we get investment how do we get economic 
development within these native communities so that people in 
these communities can get a good job and support their 
families. It seems to me the core of this in terms of healthy 
families is people being able to get a job.
    We recently had a hearing and Chairman Dorgan brought up 
one of Senator Inouye's bills that talked about setting up a 
bank or an organization to push capital and investment into 
native communities. I think that is part of this issue also 
that we need to address.
    So with that, I thank both of the witnesses for being here.
    Secretary Echo Hawk, thank you for staying over and hearing 
these witnesses. You know your message is heard when the 
Secretary stays here and we appreciate your support staff being 
here.
    With that, I will adjourn the hearing. The hearing is 
adjourned.
    [Whereupon, at 11:10 a.m., the Committee was adjourned.]

                            A P P E N D I X

  Prepared Statement of Faye BlueEyes, Program Director, Dzilth-Na-O-
             Dith-Hle Community Grant School, Navajo Nation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Prepared Statement of Charles L. Jaynes, Former Chief of Safety and 
               Risk Management, Bureau of Indian Affairs

    I wish to thank the Committee for the opportunity to 
testify on Indian school safety. For twenty-six years, I had 
the privilege to serve as Chief of Safety and Risk Management 
for the Bureau of Indian Affairs. During my tenure at BIA we 
were able to effect many changes to enhance the safety of 
Indian children in schools. The first of those major 
accomplishments was to adopt national consensus building safety 
codes for all schools where none had existed previously. 
Another major step was to develop and implement a policy 
requiring that all new school construction include fire 
protection automatic sprinkler systems. The fire protection 
sprinkler requirement was a ground breaking accomplishment. 
Today that requirement is more stringent than requirements for 
public schools nation-wide.
    Education in Indian Country presents many challenges that 
are not faced by most public schools in America. Unlike public 
schools, a majority Indian schools are located in remote 
reservation areas that are not served by conventional 
infrastructure. Most Indian communities lack professional fire 
protection, emergency medical services and other community 
based services that are available to most American communities. 
This means that many Indian communities have no mutual aid from 
surrounding jurisdictions and may be from tens of minutes to an 
hour away from receiving emergency assistance. The remoteness 
factor causes a significant elevation in the risk assessment 
for Indian children attending reservation schools.
    There will be nothing in my testimony today that is new or 
unknown to the Bureau of Indian Affairs. Over the past twenty 
or so years, there have been numerous reports by the Department 
of the Interior Inspector General citing deficiencies in Indian 
school safety. Additionally, there are internal reports issued 
by BIA task groups, the Department of the Interior Safety 
Office, and the BIA Division of Safety and Risk Management. All 
of these reports should be available to the Committee for your 
review and consideration from the Department of the Interior 
and the Bureau of Indian Affairs.
    I will attempt to group items in my testimony in order of 
potential risk posed by deficiencies in Indian schools with the 
highest risk being listed first. I hope that the following 
testimony will be helpful to the committee and welcome the 
opportunity to answer any questions that you may have.
    Existing reports indicate that as much as 40% of fire alarm 
systems in Indian schools are not at full operational 
capability. This calls into question whether school children 
could be evacuated in the case of an emergency on any given 
day.
    Many Indian schools are not being inspected for safety on 
an annual basis and abatement of safety hazards is not being 
accomplished as required in Federal Regulations. This failure 
means that the Bureau of Indian Affairs and the Bureau of 
Indian Education have incomplete data to identify the risks for 
children attending Indian schools. No one in government is held 
accountable for accomplishing the required inspections and 
abatement of hazards in Indian schools.
    Funding is not being requested by government agencies to 
correct the known safety and health deficiencies in Indian 
schools and as I previously stated there are deficiencies 
existing in schools which are not known due to the lack of 
inspections.
    There is and has been a general statement of concern for 
the safety and health of children attending Indian schools by 
the responsible government agencies. However, there has been a 
lack of action by those same agencies to assure that safe and 
healthful conditions are present in Indian schools.
    Below is a list that details four major areas which 
contribute hazards affecting the safety and health of children 
attending Indian schools.

Fire Alarm Systems
    At any given time up to 40% of fire alarm systems in Indian 
schools are either inoperative or experience some form of 
system failure. A study conducted by the BIA's Division of 
Safety and Risk Management found that many of the failed alarm 
systems were antiquated and that parts, components and service 
were no longer available for the dated systems. In addition, 
the study found that newer systems were overly complex and 
could not be maintained by the local maintenance staff at 
school locations. The national codes require that a functioning 
manual fire alarm system be provided in all education 
occupancies and an automatic detection system be provided in 
residential occupancies such as dormitories. With the advent of 
microprocessors and advanced electronics many manufacturers 
have produced very complicated fire alarm systems In addition 
to requiring a high level of technical expertise for 
maintenance these new systems are very costly. The BIA spends 
from $20,000 to $40,000 on average for fire alarm systems in 
new construction. These systems provide addressable access for 
system diagnostics, immediate notification to emergency 
services and other enhancements to improve reliability and 
rapid response by fire, EMS and public safety organizations. 
These systems serve an important function if the facility is 
located in Arlington, Virginia, Phoenix, Arizona or Rapid City, 
South Dakota because those communities have the available 
infrastructure to respond. I have however questioned the wisdom 
of purchasing such systems where the alarm system transmits a 
signal to a non-existent fire department. The addressable 
diagnostic function is of little value to maintenance personnel 
who lack an understanding of microprocessor technology and have 
not had sufficient training to utilize the systems diagnostic 
functions. These issues are compounded when an Indian school is 
a boarding facility. The BIA is one of few, if not the only 
education system that boards elementary age school children. 
Elementary age children are very difficult to arouse from sleep 
and once awake, they tend to be confused and disoriented. Early 
detection of smoke and fire is an essential life saving 
function for small children.
    My assessment of the value of fire alarm systems in Indian 
schools has always led me to the conclusion that the system 
should provide immediate notification of an emergency to the 
staff and students of schools so that they could evacuate the 
facility and get to a point of safety without delay. A system 
costing $40,000 can not accomplish this task if it is not 
functioning properly and can not be maintained. Most all 
manufacturers of fire alarm systems offer a simple alarm system 
that meets code requirements. These simple systems cost in the 
range of $5000 to $10,000 and are easily maintained with a 
minimum amount for training for local personnel. The important 
consideration is that systems must be reliable, for a system 
that is inoperable provides a sense of false security to the 
staff and students.

Emphasis On Safety
    I have always disliked the term ``Risk Management'' when it 
applies to the safety of children in schools. I have always 
believed that a policy of eliminating risk was the proper 
philosophy. Most organizations with an effective safety program 
have adopted this view of risk. Placing the safety function at 
an organizational level away from competing or conflicting 
functions is central to having an effective safety program. The 
commonly used phrase ``Safety First'' embodies this view. 
Throughout the 1990's the BIA safety organization reported to 
the Director of Administration. An internal task force report 
by BIA found that this was the proper placement of the 
function. That same report warned that placing the safety 
function under facility management, environmental quality or 
personnel management could diminish the effectiveness of safety 
due to conflicting or competing interests. In or about 2005, 
the Bureau underwent a reorganization that placed safety within 
a new office titled `` Office of Facility Management, 
Environmental and Cultural Affairs''. Note that there was no 
mention of safety in the organizations title. This action was 
interpreted by many that safety was not a priority with BIA. 
The basic OSHA Act requires that the safety program be placed 
high enough in an organization to assure that proper staffing 
and other resources are available to effectively secure the 
proper level of safety for employees and the public. In the 
case of the Federal government, the regulations (see 29 CRF 
1960) state that the safety program should be at the level of 
Assistant Secretary. When the safety function is a priority to 
executive management, the rest of the organization tends to 
place more emphasis on operating safely and eliminating risk.
    The BIA has developed a comprehensive data system to track 
safety inspection findings, monitor abatement of safety hazards 
and provide a mechanism to fund correction of deficiencies. The 
system is a major achievement and is the most comprehensive 
system I have seen in thirty plus years of professional safety 
work. The system however, can not perform the inspections, 
develop abatement plans and request funds. These functions 
require human effort. Since 1995, the level of resources 
available for safety have diminished at a steady pace. Safety 
positions at the headquarters level and at the regional office 
have been vacant for years. Additionally, officials in charge 
of schools have not been held accountable for developing safety 
abatement plans. This means that a system costing millions of 
dollars is ineffective because there is no input at some 
locations and where deficiencies are identified, abatement 
plans are not developed and entered to address correction of 
the identified hazards. Officials at all levels of the 
organization should be held accountable if safety hazards are 
to be eliminated.

Elaborate School Designs
    Schools have one simple function; to educate youth in an 
effective manner. Indian schools have fallen victim to a trend 
being faced by school construction nation-wide. Many times, 
school designs become a show place for architectural talent. 
BIA has built schools that are shaped like buffalo, eagle wings 
and a variety of other designs. Many of these designs 
incorporate building systems that are difficult to maintain and 
are very costly. Some of these design features include hallways 
configured in an elliptical arc or similar unusual 
configuration. Roof designs which do not contribute to the 
function of the building but are purely aesthetic are common. 
These various design features can double the initial 
construction costs of schools but more importantly make the 
facility very difficult to maintain. These maintenance issues 
often contribute safety hazards once the schools come online. 
Water leaking from roofs into electrical and fire alarm systems 
is a common observation cited in safety reports. Heating, 
ventilation and airconditioning systems in complex designs are 
harder to maintain which effects fire alarm operation.
    Design firms have a vested interested in elaborate designs. 
The design fees collected (usually 6%) are based upon the cost 
estimate for construction. Therefore, the more a school costs 
to build, the more money the design firm collects. Indian 
tribes may wait years for their school project to be funded for 
construction and subsequently they are frequently taken 
advantage of by project designers. Not only does this method 
increase the initial cost of a school, but it also negatively 
impacts the maintenance of the facility and subsequently 
increases the safety issues once the facility is occupied and 
used. A simple, functional design is cost effective, easy to 
maintain and mitigates risk by its very nature.

School Site Selection
    A large number of Indian schools are located within the 
Southwestern United States. The Southwest region of the country 
is noted for its complex geology. The geology and soil 
conditions are very important when selecting a building site 
for schools. During the last twenty or thirty years Indian 
Schools have been plagued by structural issues relating to 
differential settlement of the structures. This settlement is 
demonstrated by cracks in walls, foundation failure. The BIA 
has spent millions of dollars addressing structural distress in 
Indian schools. These issues have been cited in numerous 
Inspector General Reports and yet the Bureau continues to build 
schools in areas where the geology is known to be unstable. A 
recent example of this involves the new Ft. Wingate High 
School. This project was build very close to the site of the 
existing high school. The school site is located on an unstable 
geologic formation that is over one hundred feet deep. The old 
Ft. Wingate high School experienced constant structural 
distress over its life since the 1960s and the Bureau spent 
significant resources trying to stabilize that structure. The 
original buildings were built on concrete piers drilled some 
forty feet deep. The new high school is built on the same basic 
geologic formation and engineered fill of several feet was 
provided to offer a stabilized base for the structure. This 
fill material was placed upon an unstable geologic formation 
some hundred feet thick. There was documentation raising the 
geologic issues before the new school was built but the 
construction went forward. As time progresses, one can expect 
that the new school will experience safety problems related to 
differential settlement. Similar problems are well documented 
in BIA files for Sanostee School, Chinle Boarding School, Alamo 
Community School and many others.
    School site selection should involve not only traditional 
soils analysis but a stratigraphic review by a qualified 
geologist to assure that a site is suitable for school 
construction. This simple action could result in elimination of 
structural hazards as well as significant costs savings. In 
locations where unstable soils and questionable geology are 
unavoidable, there are known techniques to combat the effects 
of differential settlement. While these techniques may have a 
large front end cost, they are considered economical over the 
life span of a building.
                                ------                                


          Prepared Statement of the Standing Rock Sioux Tribe

    Councilman Milton Brown Otter: ``Indian and non-Indian--The 
schools are the backbone of ALL communities because without the 
schools there would be NO community.''
    Thank you for addressing the responsibility for the safety 
of our students in Tribal Grant Schools. Our Reservation spans 
across North and South Dakota encompassing 2.3 million acres, 
comparable to the size of the state of Connecticut. We have 
nine schools within the boundaries of our reservation; five 
public schools, one private school, and three tribal grant 
schools. Our largest Tribal Grant School is the Standing Rock 
Community School located in Fort Yates, North Dakota, serves 
grades Kindergarten to twelve with an enrollment of 863. The 
next largest grant school is the Sitting Bull School located in 
Little Eagle, South Dakota, serves grades Kindergarten to eight 
with an enrollment of 85. Our smallest grant school is the Rock 
Creek Grant School located in Bullhead, South Dakota, serves 
Kindergarten to eight with an enrollment of 65.
    In this testimony we will address the critical safety needs 
of these three schools in three areas, (1) student safety with 
regards to violence, facility safety with regards to (2) 
physical security and (3) maintenance and repair. We will also 
address the ``breaks'' in the processes, both BIE and Grant 
School, that contribute to many of these issues being 
reoccurring.

Student Safety with Regards to Violence
    For Sitting Bull School and Rock Creek Grant School the 
internal violence takes on a form that many of us ``cringe'' at 
even the thought of but for these children, suicide is a 
reality. In the last school year only four behavioral incidents 
were reported in Native American Student Information System 
(NASIS) and that is not uncommon or uncharacteristically low. 
However one of these schools suffered the loss of one child 
taking his life and 5 attempts by others. These are violent 
acts, self inflicted by our students and need to be addressed. 
Where is the safety of the children from themselves being 
addressed? Break in Process.
    For the Standing Rock Community School the internal 
negative behavioral problems, data wise, outweigh the external, 
not to say the external does not contribute or is not the 
direct cause of the internal negative behavior. Some statistics 
from NASIS. . .
    Standing Rock High School which services grades 9 through 
12 had 356 Negative Behavioral Reports in 2009-2010:

        22 were Drug or Alcohol related.
        88 directly or indirectly involved violence.

    Standing Rock Middle School which services grades 6 through 
8 had 956 Negative Behavioral Reports in 2009-2010:

        22 were Drug or Alcohol related.
        124 directly or indirectly involved violence.

    Standing Rock Elementary School, grades Kindergarten 
through 8 had 291 Negative Behavioral Reports in 2009-2010:

        4 were Tobacco related.
        160 directly or indirectly involved violence.

    Recommendations are being made in this testimony to address 
the key safety issues with regards to violence by:

  <bullet> Even non-violent and/or drug related negative 
        behavioral incidents affect the learning of others. 
        Adequate support staff to address and deter all 
        negative behavior is needed

            <bullet> A counselor for each school
            <bullet> Adequate Security ex. Resource Officer for 
        each school
            <bullet> Adequate hall monitors

  <bullet> There is a need to construct a student dormitory 
        (student housing) on the Standing Rock Reservation. The 
        Standing Rock Community School has identified this as a 
        need to house homeless students and to serve students 
        due to the family dysfunction and social conditions.

  <bullet> An MOA or MOU documenting and committing 
        collaboration and coordination of BIA Police and BIE 
        Schools services to assure safe and protected school 
        zones.

Facility Safety with Regards to Physical Security
Security of School Grounds and Police Response Time to External Attacks
    Break-ins on school grounds have been emotionally crushing 
and costly occurrences at our grant schools. This last school 
year there were two break-ins at Sitting Bull School that 
resulted in over $26,000 worth of damage. Currently, Sitting 
Bull School has no surveillance cameras or security system in 
place. Standing Rock and Rock Creek do have surveillance 
cameras however they are outdated inadequate in number. As a 
result our schools are still very vulnerable. There is 
potential for greater harm to be done. Break in Process.
    There was a violent incident at Sitting Bull School. The 
authorities were called, immediate action was needed, Police 
did not arrive until the next day. The Standing Rock Sioux 
Reservation is protected by BIA police--BIE and BIA are 
entities of the Department of Interior. Break in Process.
Recommendations for Facility Safety with Regards to Physical Security

  <bullet> Our three tribal grant schools all need security 
        fences throughout school grounds that includes a gate 
        system for entrance of school grounds.

  <bullet> Sitting Bull School needs locking exterior windows 
        throughout school--they currently have to use a piece 
        of wood to lock the windows in every classroom and 
        offices.

  <bullet> All three schools need new surveillance and security 
        systems.

  <bullet> An MOA or MOU documenting and committing 
        collaboration and coordination of BIA Police and BIE 
        Schools services to assure safe and protected school 
        zones.

  <bullet> There is a need to construct a student dormitory 
        (student housing) on the Standing Rock Reservation. The 
        Standing Rock Community School has identified this as a 
        need to house homeless students and to serve students 
        due to the family dysfunction and social conditions.

Facility Safety with Regards to Maintenance and Repair
    There are deficiencies at our three grant schools. This 
testimony references reports including ``Notice of Unsafe and 
Unhealthful Working Conditions Reports; Backlog Deficiency 
Reports'' and ``Unofficial lists'' provided by the 
administration of the schools. The lists go on and on and have 
gone on and on for years. Rock Creek and Standing Rock could 
very well qualify as providing the DEFINITION of the BIE 
``band-aid'' approach to facilities problems. The Rock Creek 
Grant School must be replaced. The original school was built in 
1912 with additions and renovations made throughout the years 
to accommodate facilities deficiencies and student growth. The 
original building serves as the `hub' of the school with 
additions of classrooms and a multi-purpose room serving as the 
kitchen, dining area and gym. There are also two portable 
classrooms that house the kindergarten and first grade students 
and the culture program. As the Bureau of Indian Affairs does 
not have a school construction priority list, what is the 
process for the school to access funding for building a new 
school.
    For Standing Rock, who is in the middle of a MAJOR 
construction overhaul, the amount of time and resources taken 
to address the deficiencies reported in the annual ``Notice of 
Unsafe and Unhealthful Working Conditions Reports'' and 
``Backlog Deficiency Reports,'' they could have built a new 
school. The funding for the overhaul however did not come from 
BIE, though the recommendations and required improvements did. 
The construction was funded by 2009 American Recovery and 
Reinvestment Act (ARRA) funds. Without the ARRA funds, where 
would the funding have come from?
    Sitting Bull School is a perfect example of not having 
CATASTROPHIC repairs and needs in terms of crumbling buildings, 
but a laundry list of minor problems just waiting to explode:

  <bullet> Boiler Problems--Well documented, a replacement 
        boiler was needed 5 years ago. All of which is eligible 
        for emergency funding but the school has not received. 
        The school does not have the money for a replacement. 
        The boiler went out twice this last year.

  <bullet> Sewer backups throughout the year, system needs to 
        be replaced.

  <bullet> Operating on one Boiler throughout the year, advised 
        BIE but no actions have been taken to date. Must be 
        repaired or replaced.

  <bullet> Fire system/sprinklers, school system is very old, 
        need updated system installed. Water Pull Stations are 
        very old, need upgrading.

  <bullet> Water Heater system is very old and needs upgrading.

  <bullet> Kitchen Appliances are very old.

  <bullet> Sprinkler system for stoves is very old, the 
        ventilation system is dangerous, all need upgrading or 
        replacement in these areas.

  <bullet> Gym lights are very old and can fall anytime now 
        would injure anyone who is standing underneath them if 
        this happens.

  <bullet> Bleachers in gym are very old and falling apart, 
        this situation presents a danger to our students.

  <bullet> Playground equipment is very old which makes them a 
        hazard for our students, some equipment is still being 
        used from the old school from the 60's and 70's.

  <bullet> Propane tank regulators, these needs to be upgraded 
        by 2012, safety hazard for whole school system.

  <bullet> School Space--The school was awarded a housing unit 
        (double wide) to accommodate overcrowding. Although 
        numerous attempts have been made to get the unit--all 
        is documented. The school was awarded the unit 4 to 5 
        years ago but has not received it to date.

    On annual basis the Office of Facility Management, Great 
Plains Regional Office, completes safety inspections and the 
Notice of Unsafe or Unhealthful Working Conditions Reports 
(Safety Reports). There are numerous deficiencies cited. In 
2008, the Rock Creek Grant School had 57 deficiencies, the 
Sitting Bull School had 50 deficiencies, and the Standing Rock 
Community School had 256 deficiencies. In the most recent 
safety inspection for the Standing Rock Schools completed in 
July of 2009, there were 230 items identified that keyed the 
school buildings unsafe and violating safety codes. Forty Three 
percent of the items were ``Repeats'' meaning they were 
identified last year. Forty-eight percent were identified as 
Serious Code and Law Violations and ten percent of those will 
take at least 6 months to correct. The schools are required to 
complete and submit abatement plans for the deficiencies that 
are not corrected in thirty days; however, there is no or 
inadequate funding to correct the deficiencies. Break in 
process.
    The bottom line is minor problems become major problems if 
not addressed immediately and correctly. This hearing is about 
BIE School Safety making the grade. A boiler breaks and needs 
repair so a school can have heat so the children can go to 
school. On Standing Rock, not only is heat a necessity for the 
classroom to be functional for the learning of our students, 
heat is a necessity for life. This past year the temperature 
dropped to 35 degrees below zero. . .several times. If you have 
no boiler, you have no heat, you have no heat you have no 
school, you have no school, you have no learning. A safe 
learning environment fosters just that. . .learning. An unsafe 
learning environment promotes and even forces absenteeism, lack 
of pride in school and self, and worse of all--loss of 
learning.

Recommendations for Facility Safety With Regards to Maintenance and 
        Repair
    CLARIFY WHERE SCHOOLS GO FOR WHAT? There is a major problem 
with the distribution of funds at the very top. BIE receives 
and distributes Operation and Maintenance funds while BIA 
receives and distributes MR, FINR and Constructions funds. This 
causes major confusion for schools. Where do they go to address 
major problems versus minor problems or when minor problems 
start minor and turn major, or spending 4 months going through 
the process in BIE when it should have been addressed through 
BIA.
    ADDRESS THE ``BREAKS'' IN THE PROCESS! What is the 
procedure for the BUREAU OF INDIAN EDUCATION and the BUREAU OF 
INDIAN AFFAIRS when the schools report facilities deficiencies 
or when those entities report facility deficiencies? One thing 
is clear. . .The process is unclear. Transparency is needed for 
trust in the system.
    ADDRESS THE PROBLEMS WITH FMIS! If the reporting system is 
inaccurate or faulty the reporting is faulty. That is a known 
truth. This system has been and continues to be a challenge for 
our grant schools. It is the schools' understanding that this 
system determines funding not only for their operation and 
maintenance funding but funding for minor and major repair. Is 
the data in the system accurate? As the Rock Creek Grant School 
and the Sitting Bull do not have access to the system and rely 
on the Great Plains Regional Office Do grant schools have the 
capacity (staff and technological skills) for utilization of 
the system?
    ADEQUATE TRAINING: If training is required as a result of 
the Grantee Contract with respect to facilities--BIE provide 
adequate training and means for training so Schools can stay in 
compliance with their end of the agreement.
Final Thoughts
    There were two major reports done by OIG with respect to 
safety in the schools, one in 2008 and another in 2010. The 
problems identified in both reports are commonplace in our 
Tribal Grant Schools. In 2008 the focus of that report was on 
the actual facilities and inadequacies within. The 2008 report 
assigned dollars and responsibility of those dollars to BIE. In 
the second report 2010 the focus was shifted to the grant 
schools and the grantee agreements and the responsibility of 
the dollars to the grant schools. The problems remained the 
virtually the same the only difference is the shift in the 
blame. In the meantime nothing is done.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
